<html>
<title> - The Western Balkans: Perspectives From OSCE Field Missions</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================

                  The Western Balkans: Perspectives

                       From OSCE Field Missions



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                           November 1, 2017

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2017




         Commission on Security and Cooperation in Europe
                      234 Ford House Office Building                                              
                          Washington, DC 20515
                               202-225-1901
                           <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680b1b0b0d28050901044600071d1b0d460f071e">[email&#160;protected]</a>
                         http://www.csce.gov
                             @HelsinkiComm

                                      
                                      
                                      
            Legislative Branch Commissioners



              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners

			 DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]



ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE               
               
The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

			       [III]


   The Western Balkans: Perspectives From OSCE Field Missions

                            November 1, 2017


                                                                  Page
                              PARTICIPANTS

    Robert Hand, Policy Advisor, Commission for Security and 
Cooperation in Europe						    1

    Jeff Goldstein, Deputy Head of the OSCE Mission to Skopje (via 
videoconference)                                                    3

    Ambassador Jonathan Moore, former Head of the OSCE Mission to 
Bosnia and Herzegovina                                              6

Michael Uyehara, former Deputy Head of the OSCE Mission to Serbia   8

    Ambassador Marcel Pesko, Director of the Conflict Prevention 
 Centre, OSCE Secretariat                                          12

                                APPENDIX

    Prepared Statement of Jeff Goldstein                           33

    Prepared Statement of Jonathan Moore			   37

    Prepared Statement of Michael Uyehara		           40



 
The Western Balkans: Perspectives From OSCE Field Missions
                              ----------                              

                            November 1, 2017




    The briefing was held at 10:03 a.m. in Room 202, Senate Visitors 
Center, Washington, DC, Robert Hand, Policy Advisor, Commission for 
Security and Cooperation in Europe, presiding.
    Panelists present: Robert Hand, Policy Advisor, Commission for 
Security and Cooperation in Europe; Jeff Goldstein, Deputy Head of the 
OSCE Mission to Skopje (via videoconference); Ambassador Jonathan 
Moore, former Head of the OSCE Mission to Bosnia and Herzegovina; 
Michael Uyehara, former Deputy Head of the OSCE Mission to Serbia; and 
Ambassador Marcel Pesko, Director of the Conflict Prevention Centre, 
OSCE Secretariat.

    Mr. Hand. OK, I think we can start now. It can be somewhat 
difficult to start a briefing that's been planned weeks ahead on a pre-
arranged subject, that then takes place on the day after an attack like 
that occurred yesterday in New York. It shifts the focus of our 
attention away from our work and can make us question the importance of 
what we are doing. But then we realize that that is what those who 
commit these terrorist acts want us to do.
    So, instead, we convene our briefing, which has as its most general 
goal making one small but significant region of this world, the 
Balkans, a better place for its good people. And we all gather here for 
this because we share that goal, even if our perspectives may differ 
somewhat. Let us move forward not only undeterred by what happened in 
New York yesterday, but more determined than ever to do what we do the 
best that we can.
    I would like to thank our panel and the audience for being here 
this morning to discuss the Western Balkans, or Southeast Europe if you 
prefer, and the role of the Organization for Security and Cooperation 
in Europe--the OSCE--in assisting the countries of the region as they 
continue to recover from the lingering effects of brutal conflicts in 
the 1990s, and to reform their political and economic systems in 
accordance with OSCE norms and their respective aspirations for 
European and Euro-Atlantic integration.
    The turnout today is, for me, an indication of ongoing interest in 
the Western Balkans. While the region is no longer a high-profile item 
in the media or a priority for international action, there is clearly 
recognition here--and there should be elsewhere--that the international 
community's work in the Balkans has not been completed, and that the 
work remaining is important. The Western Balkan countries are part of 
Europe, and their stability and prosperity affect European security. 
Those countries that have not already done so are at least the next in 
line to join NATO or the European Union if they so choose, and delay or 
denial of their aspirations for integration have definite implications, 
especially today when other outside forces are at play in the region. 
And with so much progress achieved since the late 1990s, consolidating 
that progress and making it less vulnerable to reversals should not 
require the enormous time or resources seen in the past, and yet could 
make a significant difference.
    The OSCE has been a fairly consistent part of the international 
community's response to the challenges of the region, from the outbreak 
of the violence in the early 1990s to the post-conflict recovery and 
reform efforts that bring us to the present. The Organization's work in 
observing elections is well known, but the missions it has deployed in 
each of the countries of the region have done good work that is often 
ignored. OSCE field activity exists today in Albania, Bosnia and 
Herzegovina, Kosovo, Macedonia, Montenegro and Serbia. I should note a 
mission previously was deployed in Croatia, prior to its EU membership.
    And we hope to hear about OSCE work in these countries from those 
who recently participated in it directly, still do so today, or oversee 
it from the Secretariat in Vienna. Hopefully, the discussion will not 
be just about the countries of the Western Balkans, but also a little 
bit about the utility and the advantages of the OSCE and its assets 
more generally as a multilateral diplomatic response to the challenges 
the 57 OSCE participating States face today. The presence of the OSCE 
in the field is not limited to the Balkans, for example. It is most 
visible in Ukraine today, but it had its start with the first 
deployments in the Balkans in the second half of 1992.
    Short biographies provided by each of our panelists have been made 
available, along with any statements that were made in advance, so let 
me go on simply to introduce and personally welcome each participant in 
order. We will go chronologically in the order in which the missions 
were established.
    This means we will start with the OSCE Mission to Skopje and its 
deputy head, Jeff Goldstein. This mission was one of the first deployed 
in the Balkans to counter the spillover effects of the conflict then 
raging in Bosnia, and it has maintained a steady presence through that 
conflict, the subsequent Kosovo conflict, the conflict in Macedonia 
itself in 2001, and to the recent political crisis and ongoing reform 
challenges of today. Jeff has been on the Mission for well over a year, 
and can provide insights on the latest developments in the country.
    I should clarify that the Helsinki Commission refers to that 
country by its constitutional name, Macedonia, as does the United 
States. But the country was made a participating State of the OSCE 
using its interim name, the Former Yugoslav Republic of Macedonia. 
Those representing the Organization, therefore, will understandably 
need to respect that designation.
    I also, frankly, want to start with Jeff while the technology is 
working and we can hear and see each other. I have a bit of a Rodney 
Dangerfield complex, and my greatest fear right now is turning around 
and seeing a blank screen and then wondering what to do next. It's not 
easy being me. But since Jeff is there right now and we can hear him 
well, I believe, let us proceed. Jeff, do you want to begin?
    Mr. Goldstein. Thank you, Bob. And greetings to everyone from 
Skopje. I'd like to begin by giving you a brief rundown of events here 
over the last year, and then talk a bit more about the role of our 
Mission.
    2016 ended on a very positive note here in Skopje. After two false 
starts earlier in the year, parliamentary elections that had been 
called to try and break a political crisis that had been gripping the 
country for two years were finally held, and they were judged to be 
largely free and fair.
    And I think in particular there were two things that are real 
positives coming out of those elections. The first is that for the 
first time in the history of this country, there was an effort by one 
of the major political parties to reach out to voters across the ethnic 
divide. And that actually was a very successful effort, in that several 
tens of thousands of ethnic Albanian citizens voted for the Social 
Democratic Party, or SDSM.
    The second positive that came out of the elections is that turnout 
was up significantly over the previous elections in 1994, growing by 6 
percent, which I think speaks to the fact that the citizens of the 
country both cared about politics and had faith that the democratic 
process could actually bring positive change to their lives.
    Now, the elections did result in a very close result. The 
conservative party VMRO, which had been the governing party since 2006, 
came away with 51 seats in parliament, while SDSM came away with 49. 
The largest Albanian party, DUI, which had been in coalition with VMRO 
since 2008, saw its share or its number of voters drop precipitously as 
ethnic Albanians not only voted for the Social Democratic Party, but 
also for newly minted political parties on the ethnic Albanian 
political scene, the Alliance for Albanians and BESA.
    Nevertheless, the 10 seats that DUI won would have been enough to 
create or recreate a DUI-VMRO coalition with a one-vote advantage in 
the 120-seat parliament, and the two parties began negotiations toward 
that end, only to fail as a number of senior people in DUI had come to 
believe that their party's poor results in the election were a result 
of the fact that their electorate had come to see the long-term 
partnership with VMRO as a negative, having come to see VMRO as being 
an ethnically chauvinistic and highly corrupt party. As a result, down 
to the last minute, those negotiations did not produce a coalition.
    At that point, Zoran Zaev, the leader of the Social Democrats, as 
the leader of the second-largest party in parliament, claimed the right 
to receive the mandate to begin coalition talks from President Gjorge 
Ivanov. The president refused to give the mandate, however, stating 
that he believed Zaev was willing to negotiate with the Albanian 
parties on the basis of a policy document that Ivanov claimed was 
drafted in Albania, and that he claimed presented a threat to the 
sovereignty and security of Macedonia.
    This provoked a very tense constitutional crisis that dragged on 
for several months, as VMRO engaged in a long-term filibuster in 
parliament and pro-VMRO civic groups held large demonstrations on a 
daily basis in Skopje and other cities throughout the country. So 
although Zaev had a two-seat majority, together with DUI and the 
Alliance for Albanians, in essence for late winter and early spring, 
politics here were deadlocked.
    Then, on April 27th, the deputies from those three parties stayed 
after the closing of a session of the parliament and voted in DUI's 
Talat Xhaferi as speaker--by the way, the first time an ethnic Albanian 
has held such a senior post in the government here. The election took 
place at about six in the evening, just as the daily pro-VMRO crowd was 
arriving at parliament, and a mob of several hundred broke into the 
parliament, and assaulted leading members of the new coalition and 
journalists.
    Following this violence, President Ivanov relented and granted Zaev 
the mandate, and by the end of May, SDSM, DUI, and the Alliance had 
formed a new government. The government announced a very ambitious 
series of domestic reforms and a major effort to improve relations with 
the country's neighbors. Symbolically, the foreign minister's first 
trip out of the country was to Athens, where he expressed a desire to 
work with Greece towards resolution of the longstanding name dispute 
that Bob referenced in his introduction. All of these efforts are aimed 
at paving the way to achieving the new government's strategic goal, 
which is to reopen the country's integration process with European and 
Euro-Atlantic structures that has essentially been frozen since the 
Bucharest NATO Summit in 2008.
    Just these last couple of weeks, the country held municipal 
elections. The main story of these elections in the first round was 
VMRO's poor showing. In their first elections as an opposition party in 
a decade, the party received 25 percent fewer votes than it had last 
December. SDSM won the mayorships in Skopje, almost all of the major 
ethnic Macedonian majority municipalities, and even in many of the 
rural almost solidly Macedonian municipalities that had up until now 
been strongholds of VMRO.
    DUI saw only a small increase in their share of the votes from last 
December. But with support from SDSM and fractured opposition from the 
other Albanian parties, in the first round their candidates made it 
through to the runoffs in all of the major Albanian municipalities.
    The second round was held just this past Sunday, and the results 
are still preliminary as we are awaiting the adjudication by the State 
Electoral Commission of complaints. But it appears that these trends 
continued as SDSM won 17 of 19 races in which they went head-to-head 
with VMRO, and DUI won in most of the runoffs its candidates ran in, 
although the Alliance for Albanians did win in one major municipality. 
ODIHR election observers found the two rounds of elections to be 
generally competitive with unbiased coverage by the media and 
reasonably well administered.
    VMRO, on the other hand, has denounced these elections as extremely 
unfair and said that they will refuse to recognize the results of the 
elections. Nevertheless, I want to stress that ODIHR found only 
isolated instances of misuse of administrative resources and vote 
buying.
    These elections, coming as they did only six months into the life 
of the new coalition, have roiled the political scene here. But going 
forward, it appears at this point that SDSM and DUI will have no 
problem in finding the votes they need to maintain their majority in 
parliament and return to the reform agenda.
    So let me now turn to the role of the OSCE, and particularly of our 
Mission over the last year. During the tense days this winter, the OSCE 
was urging all sides to work democratically and peacefully to resolve 
the crisis. The Secretary General and a special representative of the 
Chairman-in-Office both made visits here to reinforce that message. For 
our part, the Mission closely monitored the situation on the ground, 
including the protests, the situation in parliament, and what appeared 
to be a politically motivated attack on a large number of important 
civil-society organizations in the country.
    With the election of the new government, we have turned our focus 
to coordinating with the new local authorities on how best we can 
support the reform process in line with our mandate and with the host 
country's OSCE commitments. Among the government's top reform 
priorities are reforms in the area of rule of law, law enforcement, the 
electoral system, freedom of expression and the media, increasing the 
role of parliament, and further implementation of the Ohrid Framework 
Agreement, which was signed in 2001 to end the intercommunal violence 
in the country.
    We have put together our plan for 2018 with those priorities in 
mind. Those plans--which I have to say are tentative pending final 
approval of our budget by the participating States, including the 
United States--will include continuing to focus on building cohesive 
interethnic relations, with particular emphasis on the area of 
education and youth. We will continue to support democratization and 
public administration reform, with a focus on enhancing institutional 
capacities both on the central and on the local levels; increasing 
adherence to democratic governance principles; and further efforts to 
improve the capacity of the government to freely and fairly administer 
elections. We will continue our long-term work in the areas of 
tolerance and nondiscrimination, hate speech, and hate crime. The 
Mission will support efforts to implement reforms to increase the 
independence of the judiciary, with a focus on transparency and access 
to justice. We will continue, as we have for several years, to monitor 
high-profile court cases, including those that have the potential to 
inflame interethnic tensions and those being brought via the special 
prosecutor that was called into being in 2015 to investigate alleged 
crimes that were apparent in the illegal tape recordings that were 
released by the opposition.
    Historically, another major part of our work has been and will 
continue to be implementing work on democratic policing and improving 
the professionalization of the police. This includes working on 
improving accountability, transparency, and policing skills.
    We will continue to support and provide expertise to address 
transnational threats, high among them fighting organized crime, the 
threat of violent extremism, and trafficking in persons, that has been 
in large part associated with the migration crisis that had a major 
effect here two years ago.
    We hope to add two new streams of work this year, bearing in mind 
the changes here on the ground. The first is support for the 
parliament. One of the things that's become apparent is that the 
parliament needs to increase its capacity to provide effective 
oversight over the administrative branch and to hold the executive 
accountable. We will also be working to promote freedom of speech and 
of the media, with a focus on improving the safety of journalists and 
improving media literacy.
    As Bob mentioned, we are proud to be the oldest field operation in 
the OSCE. We'll be celebrating our 25th anniversary this month, and we 
look forward to year 26. I think we have a real opportunity in which we 
can--working with the local authorities, working with Ambassador Pesko 
and the other institutions of the OSCE, and working with our 
international colleagues here on the ground--support positive change in 
this country.
    Thank you very much.
    Mr. Hand. OK, thank you very much, Jeff. And before we go to our 
next speaker, I just want to confirm: You can hear us?
    Mr. Goldstein. Yes, I can hear you fine. Thanks, Bob.
    Mr. Hand. That's good.
    Well, if the Mission to Skopje was at the beginning of OSCE field 
activity, the Mission to Bosnia and Herzegovina brought that activity 
to a whole new level of prominence and capacity, given the task it 
faced to assist implementation of the 1995 Dayton Agreement, starting 
with election administration and local confidence-building efforts, and 
moving to education and so much more. The Mission to Bosnia has always 
been led by an American, as was the Mission to Skopje in its early 
years. Indeed, the first head of both of these missions was the late 
Ambassador Robert Frowick, a truly effective diplomat for whom I had 
the opportunity to work many times.
    Jonathan Moore, our next panelist, I believe also worked with 
Ambassador Frowick, and has now followed in his footsteps by being the 
head of the Mission in Sarajevo until September of this year. Jonathan 
not only has a fresh perspective on the Balkans; he also has a wealth 
of previous experience, and we are glad to welcome him back to a 
Commission event. Jonathan?
    Amb. Moore. Thank you very much.
    I could go through a long list of the distinguished members of the 
audience who are present. Thank you all very much for being here. I'm 
especially pleased to see colleagues from the region, and from the 
State Department on their way to the region.
    Let me say I'm particularly grateful to the Helsinki Commission 
members and staff, of course, for the honor of being here and for your 
continued interest, especially through Bob Hand, and your focus on the 
Western Balkans. And thank you again for the very important May 2016 
hearing on corruption in Bosnia and Herzegovina.
    I do have to offer some caveats. I should note that the OSCE 
Mission to Bosnia and Herzegovina, as Bob said, has been in the hands 
of my distinguished successor, fellow American diplomat Ambassador 
Bruce Berton, since the beginning of September. As requested by the 
Commission, my remarks today are based on my three-year tenure there. 
The views I express here are my own, not necessarily those of the U.S. 
Government, or the OSCE. I am not appearing here in my capacity as a 
U.S. Foreign Service Officer. No animals were harmed in the preparation 
of my remarks. [Laughter.] I think that covers everything.
    The OSCE Mission to Bosnia and Herzegovina, established through 
Dayton in 1995, has an extensive network of nine offices throughout the 
country, 320 dedicated professional staff, and works every day with 
people in local communities as well as the most senior political 
leaders--and everyone in between--to help keep the peace, protect 
fundamental rights, ensure the rule of law, and build prosperity.
    The Mission has a uniquely deep and broad mandate. The framework 
for OSCE activities is grounded in the 1995 Dayton Peace Accords. 
Dayton and the constitution contained in it continue to serve as a key 
foundation for Bosnia and Herzegovina and its citizens.
    The Dayton Accords gave the Mission a special role in conducting 
and observing elections. The Mission's role, of course, over the years 
has evolved. The Central Election Commission took on the responsibility 
of running elections in 2002. With the goal of helping the country 
achieve its OSCE commitments and integration aspirations, the Mission 
has used its diverse and active field presence to engage in a variety 
of areas, seeking and keeping very close ties with institutions, 
organizations, and individuals at all levels of society.
    Recalling the Mission's successful efforts and impact during my 
mandate, I would highlight three main areas: education, rule of law, 
and countering violent extremism. And I will also note the Mission's 
positive political role.
    Talking about education first and foremost, which is a tremendous 
area of interest and concern, there is both segregation and 
discrimination in the education sector in Bosnia and Herzegovina. A 
concrete example of the Mission's work was its immediate response to 
the secondary-school students in Jajce, who joined forces in the summer 
of 2016 to block the creation of a new segregated school. With the OSCE 
Mission leading the efforts of the international community, we engaged 
both publicly and privately over months and at multiple levels to 
prevent the first new case of educational segregation in the country 
since 2002. The story gained national and international attention. 
While it is important to keep watching the matter--because, as we know, 
nothing is ever solved forever--working together, we convinced the 
authorities at multiple levels to make other steps instead of splitting 
the students. The ultimate credit goes, of course, to the students 
themselves, who showed incredible tolerance, maturity, and commitment 
to a common future.
    With regard to rule of law, for years the Mission has worked to 
bring justice to victims and survivors of war crimes. In June 2016, the 
Mission released a detailed, hard-hitting analytical report on the 
state-level processing of war crimes, where there have been a number of 
deficiencies. The analysis was hailed for its insight and practical 
recommendations--with a little bit of flak, but I won't get into that 
now. Again, the Mission brought about concrete results. The 
recommendations are, indeed, being implemented both by the state court 
and the prosecutor's office of Bosnia and Herzegovina. And I'd like to 
say, with thanks to the U.S. Government, the Mission has embarked upon 
a similar effort to improve the quality of processing corruption cases.
    Bob, thank you very much for mentioning the terrorist attack in New 
York yesterday. This is something on all of our minds. Bosnia and 
Herzegovina has suffered four terrorist attacks over the past seven 
years, including the 2011 attack on the U.S. Embassy in Sarajevo. The 
country's authorities are working to do what they can, but we all 
recognize Bosnia and Herzegovina is vulnerable. Given the deep scars 
left by the war, terrorist attacks could greatly damage the stability 
of the country by leading to acts of revenge and, therefore, a growing 
cycle of conflict.
    The OSCE Mission in Bosnia and Herzegovina takes advantage of its 
grassroots-level involvement throughout the country. As in other areas, 
we see clear evidence of the essential role played by local 
communities. Having helped establish a series of over 30 coalitions 
against hate, local communities are natural allies in building mutual 
respect and joint community values. These are locally constituted 
groups of individuals and NGOs dedicated to working with each other as 
neighbors to emphasize common rights and build broader respect and 
understanding.
    The April 2015 terrorist attack in Zvornik, which happened just two 
days before the visit of then-Chairman-in-Office and Foreign Minister 
of Serbia Ivica Dacic, came as a shock to all of us in the region and 
around the world. But we learned a very valuable lesson: The local 
coalition there, together with the mayor and the Islamic community, 
with one voice called immediately for calm and tolerance, opposing any 
acts of revenge.
    Given that example and building on a project funded by the U.S. 
Government, the Mission integrated the fight against violent extremism 
into its efforts as a permanent element of the security cooperation 
team, one joined by colleagues from across the Mission. The U.S. 
Government has also developed scenario-based multi-stakeholder seminars 
to provide collaboration and disseminate good practices. With U.S. 
Government support, we conducted a very successful tabletop exercise 
early last year building international coordination, but also whole-of-
society coordination and collaboration inside the country. The OSCE 
Mission is following up on these efforts, and is engaging with youth 
and local community leaders on countering violent extremism (CVE) well 
into next year.
    Let me just talk about the Mission's effectiveness and the 
political context. The Mission continues to build capacities at all 
levels, within its budget, and speak candidly about both opportunities 
and obstacles. Bosnia has many of both. The Mission proves its 
effectiveness and the depth of its engagement again and again. Key 
factors include the diverse, expert, motivated workforce--women and men 
from across the country and many OSCE participating States; the large 
network of field offices allows for constant outreach, is flexible and 
tailored to practical opportunities, and helps build enduring local 
contacts; the extensive media engagement that the Mission has, which is 
fostered by a pattern of access to and for the press and defense of 
media freedom; as well as recognition by the public that the Mission 
does not shy away from difficult tasks and topics, whether at the 
national or local level.
    The strength of the OSCE Mission in Bosnia and Herzegovina can be 
summed up as: credibility with everyone, presence everywhere; access to 
everyone; engagement with everyone. This helps to bring about results. 
In this building and on this Hill, we can talk about ``all politics is 
local,'' and grammatically or otherwise it's certainly true. Or, if you 
prefer, ``think globally, act locally.'' That is exactly what the 
Mission is all about. Even in the political sphere, where we helped 
partisan adversaries build coalitions after the 2014 elections, helped 
defend the country's constitutional order against attacks from within, 
and calmed local tensions, interethnic tensions, both in Srebrenica and 
Stolac in 2016, it is evident that the OSCE Mission can make and has 
made an important and positive impact.
    In conclusion, let me just say what I said when I left Sarajevo, to 
offer my deep thanks to all the members of the team of the OSCE 
Mission, the Helsinki Commission, and many others, including the 
Serbian chairmanship that supported our work, the Secretariat in 
Vienna--thanks to Marcel Pesko. I'm glad to be here and look forward to 
hearing your questions.
    Mr. Hand. Thank you very much, Jonathan.
    Keeping the chronological order, the Mission to Serbia was created 
after the other two, and only after the ouster of Slobodan Milosevic 
from power in late 2000 made it possible. Over time, it, too, has 
adapted to Serbia's changing needs as the country seeks to move beyond 
a dark chapter in its history.
    An American has, thus far, always held the deputy position on the 
Mission, just as in Bosnia it's been the Head of Mission. And most 
recently it was our next panelist, Michael Uyehara. I mention the 
American leadership on these three missions to underscore the 
importance the United States has traditionally attached to their work. 
Mike is also a friend of the Helsinki Commission throughout his career 
at the State Department, especially given his focus on human rights 
issues. I welcome you to this briefing today, Mike, and turn it over to 
you.
    Mr. Uyehara. Thank you, Bob.
    Dear distinguished members and staff of the Helsinki Commission, 
current and former colleagues of the OSCE, honorable representatives of 
the diplomatic corps, ladies and gentlemen, I have worked closely, as 
Bob said, with the Helsinki Commission since 2001, when I was a Belarus 
desk officer at the Department of State; and then continuing on during 
subsequent assignments at the U.S. embassy in Kyiv, Ukraine; as an 
office director in the Bureau of Democracy, Human Rights, and Labor; 
and most recently with the OSCE Mission to Serbia. During these 
assignments, I have become increasingly more impressed with the role 
played by the Helsinki Commission, a unique institution drawing 
together the executive and legislative branches, and bringing together 
the Senate and House of Representatives from both sides of the aisle.
    As the deputy head of the OSCE Mission, I traveled widely through 
Serbia and took the opportunity to speak at American corners in the 
country on the topic of the United States within the OSCE and the 
OSCE's role in support of Serbia's development. Most of my audiences 
were young, often university students or younger, and attending my 
talks to have the opportunity to hear a native English speaker. To 
break the ice, I would ask each member of my audience what they already 
knew about the OSCE. I was disappointed that the majority's answer was 
either ``I don't know about the OSCE,'' or that the OSCE promotes 
security and cooperation. [Laughter.] Given this level of ignorance 
about the role of the OSCE in a country where the OSCE has a mission, I 
am grateful to the Helsinki Commission, and particularly Bob Hand, for 
arranging an opportunity to publicize and to promote knowledge of the 
really great things that the OSCE, through its missions--what the OSCE 
refers to as field operations--does, specifically in the Western 
Balkans.
    I should first emphasize that I offer my remarks as a private 
individual. And not surprisingly, the following language will be almost 
precisely the same as what Jonathan offered. I no longer have a 
connection to the OSCE, and while I remain an employee of the State 
Department, the views I express here are my own and not necessarily a 
reflection of United States policy, either toward the OSCE, or towards 
the Balkans region broadly and Serbia specifically. That said, my 
observations and conclusions will probably not differ greatly from what 
my former boss, Italian diplomat Andrea Orizio, might provide in his 
annual report to the OSCE Permanent Council in Vienna.
    You've already had the opportunity to hear from Jonathan Moore and 
Jeff Goldstein, both of whom I have known for many years, so you 
already have an understanding of the role of the OSCE Missions. Just 
like the other two OSCE field operations, the OSCE Mission to Serbia's 
programs and activities are based on its mandate, part of the decision 
establishing it. Thus, it's worthwhile to cite it here. The version 
that I will read incorporates changes to the mandate's language 
appropriate to the June 2006 decision designating the mission as the 
Mission to Serbia after Montenegro's declaration of independence.
    The relevant portion of the decision to establish the Mission 
states: ``The Mission, acting in close cooperation with the government 
of the Republic of Serbia, will provide assistance and expertise to the 
Serbian authorities at all levels, as well as to interested 
individuals, groups, and organizations in the fields of democratization 
and the protection of human rights, including the rights of persons 
belonging to national minorities. In this context, and in order to 
promote democratization, tolerance, and the rule of law, and conformity 
with OSCE principles, standards, and commitments, the Mission will also 
assist and advise on the full implementation of legislation in areas 
covered by the mandate, and monitor the proper functioning and 
development of democratic institutions, processes and mechanisms. In 
particular, the Mission will assist in the restructuring and training 
of law enforcement agencies and the judiciary. In addition, the Mission 
will provide assistance and advice in the field of the media.''
    The OSCE Mission's structure reflects the mandate. It has four 
programmatic departments: for democratization, for rule of law and 
human rights, for security cooperation, and for media. Briefly, the 
OSCE Mission seeks to help Serbia build strong, independent, 
accountable, and effective democratic institutions. To do so, the 
Mission works with government institutions, civil society, and the 
media in its mandated areas. It also works with other missions in the 
region on joint projects and initiatives.
    The OSCE Mission to Serbia has a robust presence in the country, 
with a staff of about 130 people. This puts the Mission on a par with 
the EU Delegation, and makes it much larger than most bilateral 
embassies. While the OSCE Mission comprises a mix of international and 
local staff, with the international staff accounting for about 20 
percent of total staffing, the OSCE Mission's particular strength is 
its local employees. While their remuneration is competitive and 
generous, my personal impression is that the local staff are 
enthusiastic in carrying out their duties because they are, in the 
main, Serbian patriots. As patriots, they believe in the OSCE Mission's 
work, and are deeply committed to the Mission's objective of helping 
Serbia to advance politically and to overcome the legacy of the past.
    Through its programs, the OSCE Mission continues to provide added 
value in its core mandated fields through advice and expertise to its 
local partners to assist Serbia in becoming a rule based, democratic 
society where professionalism, accountability, and meritocracy are 
deeply rooted, and where the rights of every individual are protected 
by an independent and effective judiciary deriving its authority from a 
full separation of powers. The principles of partnership with the host 
country and national ownership of accomplishments guides the Mission's 
work in helping Serbia achieve full sustainability of its reform 
results. Adequate buy-in from the Serbian authorities, and their full 
participation in the development and implementation of Mission 
programs, ensure that the programs are targeted and topical.
    My description of the OSCE Mission's work perhaps still remains 
rather general and abstract. To bring the accomplishments of the OSCE 
Mission into focus, I shall describe two areas of the OSCE Mission's 
work in more detail: the new countering violent extremism project and 
the Follow Us initiative.
    For quite some time during my assignment, I was frustrated by the 
scant attention that international donors were paying to the issue of 
countering violent extremism--CVE--in Serbia. International donor 
attention to the Balkans was focused on Kosovo and Bosnia and 
Herzegovina, where there were cases of terrorist violence that 
underscored CVE's relevance. My argument, however, was that the violent 
extremism threat in Serbia was not zero. I would argue with various 
interlocutors and potential donors that an ounce of prevention was 
worth a pound of cure. Just because Serbia did not have a problem now, 
we should be carrying out projects strategically to counter violent 
extremism so that we would not have a problem in the future.
    Thankfully, the U.K. Government saw an intersection with a new 
funding mechanism and the CVE issue, which resulted in an offer to fund 
a CVE project for the OSCE Mission to implement. We ran with the vague 
U.K. expression of interest to develop a full-fledged project. Rather 
than focusing on Muslim-majority areas, taking heed of local leaders' 
concerns not to be stigmatized simply for being Muslim, we proposed a 
project that was national in scope and took into consideration all 
manifestations of violent extremism, including threats from Serbian 
right-wing nationalism, some of whose supporters had joined the 
Russian-backed insurgency in eastern Ukraine.
    Realizing that we should not channel our CVE activities in any 
specific OSCE Mission department, but that the CVE activities needed to 
encompass the broad mandate of the Mission, we positioned the 
management and execution of the project in the Office of the Head of 
Mission, which would allow the project manager to task and work with 
all departments. This approach allowed us to tackle the problem with a 
multi-faceted approach, which addresses primarily youth alienation in 
all its manifestations.
    The OSCE Mission supports the Follow Us initiative started by the 
Mission to bring together prominent women, particularly women 
parliamentarians from Belgrade and Pristina. In addition to providing 
financial support in cooperation with the OSCE Mission in Kosovo for 
meetings of the two groups, the OSCE Mission commissioned a 
documentary, available in varying lengths, to promote the 
accomplishments of the group and the benefit of having women from 
opposite communities speak to each other. The documentary has been 
screened for several audiences in both Serbia and Kosovo.
    The Follow Us initiative's participants most recently developed an 
action plan and an objective that includes mentoring the next 
generation of Serbian and Kosovo women leaders. As a result of their 
decision, the OSCE Missions to Serbia and in Kosovo funded a group of 
young women from Belgrade and Pristina to organize a caravan, where 
they as a group visited regional cities in Serbia and Kosovo to 
describe the impact of the program bringing them together to connect 
simply as people.
    Using the Follow Us initiative as a template, the OSCE Mission is 
also organizing a regional conference in Belgrade of women 
parliamentarians to allow them to discuss their common issues as women 
and as politicians.
    During the course of my adult career, I have worked basically for 
two organizations. For nearly 10 years, I was an enlisted soldier and 
an officer in the U.S. Army. And then, for slightly more than 30 years, 
I've been a Foreign Service officer in the State Department. My 
secondment to the OSCE Mission was a unique foray into another 
organizational environment. I had the opportunity to work with talented 
and accomplished people of many nationalities, with dedicated and 
enthusiastic Serbians, and to gain an appreciation for the value of 
multinational diplomacy. I am honored to have the opportunity to speak 
to you, but I'm also deeply grateful to have had the opportunity to 
work at the OSCE Mission to Serbia, one of the real highlights of a 
long and rewarding career.
    Thank you for your attention.
    Mr. Hand. Thank you very much, Mike. That was a great statement. 
And thanks especially for your compliments to the Commission and the 
work that we try to do here on Capitol Hill.
    Mr. Uyehara. Well deserved.
    Mr. Hand. To remind us that the OSCE Missions in the Western 
Balkans are supported not only by the United States, but by many of our 
European partners as well, we finally have Ambassador Marcel Pesko from 
the Conflict Prevention Centre of the OSCE Secretariat on our panel. We 
are very fortunate to have him here in Washington. He was attending 
what I think was a very successful two-day conference on security 
matters, specifically what is known as the Code of Conduct on Politico-
Military Aspects of Security, and he agreed to lengthen his stay to be 
with us today. He can present the view of the missions from the 
perspective of Vienna, and he can say some additional words about those 
missions that are not covered by our other panelists here. I welcome 
this additional input very much. The floor is yours, Ambassador.
    Amb. Pesko. Thank you very much, Mr. Chair.
    Ladies and gentlemen, thank you very much for the opportunity to be 
here. I really appreciate that the Helsinki Commission has invited me 
as one of the contributors to this discussion, trying to provide the 
perspective from the Secretariat, from the Conflict Prevention Centre 
on our work in Southeast Europe or Western Balkans. And I must say I 
really appreciate the deepness of commitment on the side of Helsinki 
Commission when it comes to dealing with the OSCE business in the 
field. It would hard to find anywhere in the OSCE area people that are 
as committed and that knowledgeable about what's going on in the OSCE 
and how our missions contribute to our common endeavors. So I really 
appreciate that this institution is here, and I would find it as one of 
the core platforms for the OSCE's cooperation. So thank you for that, 
and we will be always ready and happy to respond to the invitations to 
come here and share our views with you.
    Talking about Southeast Europe without looking at the broader 
situation in the OSCE area would not be appropriate. I mean, we have to 
recognize that we have a very polarized and fragmentized situation when 
it comes to European security order. If you come to Vienna today, you 
would find that participating States do not conduct dialogue; they 
conduct sets of monologues. And you will find it's really difficult to 
find common ground today. And we all know that this is related to the 
situation in the east of Ukraine, to that conflict, which exacerbates 
these divisions among participating States. This is related to the 
violation of fundamental principles on which our organization and our 
concept of comprehensive and indivisible security is based. Simply, we 
don't have common ground today when it comes to the OSCE and when it 
comes to the European security order, and we don't know where this all 
can lead.
    So, in that context, it's very important that we continue to 
maintain our coherent work in the Southeast European region. And 
therefore, I would like to highlight the importance of our presence 
there. Those are our representatives when it comes to dealing with 
local governments, with local societies. Those are our contact points 
when it comes to implementing OSCE's policies. And it is, therefore, 
very important to maintain support for their work--political support 
but also budgetary support and in-kind support.
    Looking at the strategic perspective of our field operations, 
obviously, the focus has shifted towards the special monitoring mission 
in Ukraine. But it's very important that we continue to keep Southeast 
Europe very high on our agenda. I think this was one of the reasons why 
we have seen over the last several years a certain stagnation in the 
reform process in that region.
    And we are happy to see today that there is a reinvigorated focus 
on the side of the European Union, on the side of NATO, but also the 
U.N. Just recently I had trilateral consultations with the EU and the 
U.N., and there is clearly now a stronger focus on the region and 
interest to address the current challenges the region is facing.
    Of course, the OSCE's presences have been there for some time. And 
their original mission was to address the conflict, to stabilize the 
situation, and to help the nations to come out from the conflicts and 
rebuild their nations in a new environment. And I think, as you said, 
Bob, that we have achieved a lot of positive results in that area. But 
what we need is to have a reinvigorated commitment to the region, and 
we need to respond to the current challenges which are there.
    And let me be frank on that. We have been seeing recently a 
resurfacing of the nationalistic narratives, for instance. We have seen 
deterioration of some bilateral relations. We have seen also a 
weakening, or not strengthening, of democratic institutions. There are 
issues, continued issues, with the media and freedom of expressions in 
some participating States. And overall, this is overshadowed by 
insufficient or weak economic growth in the region, a high level of 
unemployment, particularly among young populations. And also, a 
weakening of the role of parliament or not strengthening the role of 
parliament in some participating States in the region.
    So there are challenges, ongoing challenges. The countries are 
going in the right direction, but they continue to have issues, which I 
think the international community should continue to address. And as my 
predecessors already spoke about the need to strengthen the rule of 
law, good governance to strengthen the economic environment to deal 
with these transnational threats of organized crime, radicalization, 
foreign fighters, of course migration and its implications on the 
region. The agenda is full.
    What I want to stress is that we really need to refocus and, in 
cooperation with the host governments, to identify, to fine-tune this 
agenda to their needs so that we work towards strengthening their own 
ownership. And I think this is exactly what's going on during the last 
weeks and months.
    Just recently, we had a meeting of our heads of missions in the 
region, and we have identified these priorities as our top priorities. 
We are now refining our programmatic work in Montenegro. You have heard 
from Jeff also in Macedonia. We are refocusing where we think that the 
OSCE could provide more added value. With Serbia, I think we have a 
quite effective program of work. And I could continue also with Albania 
and with Pristina authorities as well.
    At the same time, what we are now focusing on more is capacity 
building, so it's more long term in order to strengthen the resilience 
of government structures and the civil society to be able to address 
and cope with the challenges that are there in front of them.
    And, of course, over the years there have been areas where we have 
also phased out our cooperation. Let me also be frank about it. The 
OSCE is not there forever, or at its size. It should not be there 
forever as it is. Our strength is in our flexibility. So it's about how 
we are able to identify these needs and how we would accommodate with 
our response. Before, we were much more focused on political, military 
aspects when it comes to dealing with the aftermath of the war, when it 
comes to standardizing the processes of stockpiling of the small arms 
and light weapons, for instance, modernizing the armed forces, creating 
regional cooperation or grounds for the regional cooperation.
    Let me just remind you that this is now on the governments in the 
region to continue the implementation of Article IV of the Dayton 
Agreement, for instance, which deals with confidence and security-
building measures in that area where the Secretariat and the Conflict 
Prevention Center provides only the facilitating role. What we would 
like really to have is very practical cooperation with the governments 
and understanding where the OSCE can and should continue providing a 
good value for them in their reform agenda.
    And there is a need to stress that there are very strong reform-
oriented ambitions in each of these participating States. They are, of 
course, linked with their Euro-Atlantic and European accession 
ambitions. Some of them, like Montenegro, recently joined the NATO; 
some of them continue to strengthen their capabilities to deal with 
their EU accession role.
    And, of course, we are not an implementing agency for the EU. But 
what the OSCE is trying to do is to form our programmatic work in order 
to strengthen the capacities of the host government in the areas where 
it can help them to progress to fulfill the EU criteria as well.
    But what I think needs to be highlighted is that the international 
community should really focus on the reform agenda in the countries and 
tailor this support to their needs. And in that context, we have seen a 
recently increased focus by the European Union as well on the region. 
And this is a welcomed development, because I think what the region has 
lost over a couple of years, a recent couple of years, is a sense of 
orientation. In a way, sort of a new impetus when it comes to the 
vision of the region was needed.
    And recently, we have seen repeated engagements by the European 
Commission, by the address of the state of the union of Mr. Juncker 
when he pointed to the need to reinvigorate the process of accession of 
Western Balkans countries to the EU. So that's the positive 
development, and we need to maintain this impetus also with the OSCE's 
role.
    Of course, at the same time, one cannot ignore the geopolitics 
which are there. We have seen recently geopolitical narratives when it 
comes to the results of elections in Montenegro, for instance. We have 
seen also these geopolitical assessments or interventions in Macedonia 
prior to the elections and also after the elections. I am just raising 
that which I think is also necessary, that the key actors use also the 
OSCE platform to reunite their positions over the Balkans. Simply, 
these divisive narratives and perspectives are not helpful when it 
comes to the furthering of the reforms and reconciliation in that 
region. And simply, we need to be open about that as well.
    So I will stop here. As I said, a lot of work in front of the 
OSCE--the need for engagement with local governments, create ownership 
and have a tailored agenda for each state we are working with, 
including when it comes to strengthening the rule of law, good 
governance, public administration, fighting corruption, and economic 
issues, unemployment.
    There is a future, of course, for our work, but we need to also 
phase out where we see that the capacities have been already put in 
place. What the region needs: reassurance and support for implementing 
their vision to become modern, prosperous and stable countries.
    And we need to address these issues of those grievances which have 
resurfaced and which are recently also shown that they can very 
dynamically change the atmosphere in the region immediately as they 
appear, and reengage with the leaders into the dialogue--like, for 
instance, now we have seen the invigorated progress in the Belgrade-
Pristina dialogue. But we also see a need for having closer dialogue 
between Zagreb and Belgrade as well, and really create a sort of sense 
of regional responsibility and togetherness that the region is working 
on the same agenda and going in the same direction.
    Mr. Hand. All right, thank you very much, Ambassador.
    At this point, we'll get into the discussion period where people 
can make some very brief comments--and I would ask people to keep them 
brief--or if they have a question to ask. And I won't use my 
prerogative as the moderator to ask the first question. I usually like 
it when people in the audience ask my questions for me, so I'll wait 
and see what is out there.
    Instead, what I would do is try to structure our conversation a 
little bit. I would like to give those diplomatic representatives of 
the countries that we're discussing today, the Western Balkans, that 
are here in the audience an opportunity to make a brief comment about 
how their country views the mission that they host, the work of the 
OSCE Missions in their neighboring countries and the work of the OSCE 
generally.
    Let me give those that I ask to make a comment in that regard a 
couple of minutes, though, and first turn to someone in the audience 
who knows the OSCE very well, but also knows the Balkans very well, Dr. 
Michael Haltzel of Johns Hopkins SAIS, who I know needs to leave in a 
few minutes.
    And so I'm going to break protocol and let Mike ask the first 
question or make the first comment so that when he needs to leave he 
has his questions answered.
    Questioner. Well, thank you, Bob. And I really hate to be ahead of 
diplomatic friends like Djerdj, sitting in front of me.
    I'm going to begin with embarrassing you and several other people 
in the audience. We are here at the Congress. The walls are thick, but 
perhaps there are representatives from the staffs here. I would just 
like to echo what Jonathan and other people have said about the value 
of the Helsinki Commission.
    I've been fortunate enough to lead several U.S. Government 
delegations to multiweek OSCE meetings, and in that capacity had 
several members of the Helsinki Commission--Bob among them, and Orest, 
and other people I've seen here--as members of the delegation. And I've 
worked with you in Washington also. And honestly, the American people 
should be very grateful to have public servants like you folks. I've 
never encountered more expertise and a better work ethic than the 
people in the Helsinki Commission.
    So you folks in Congress, in that direction, if you're listening I 
would hope you would factor, for what they're worth, these comments 
into your budgetary discussions.
    I also am a great fan and believer in the OSCE. And I think that, 
first in the CSCE and then OSCE, it's been a remarkable, on balance, 
success story. But I think it's fair to say that no organization is 
uniformly good or bad, and the record is uneven. And some of you have 
discussed that certainly the Permanent Council, which, as Marcel has 
said, more often than not has broken down into talking past each other.
    I think that the field missions stand out as one of the most 
successful elements, maybe the most but certainly on par with a few 
others in the OSCE in terms of what they have accomplished. And I am 
going to ask a question in spite of my long introduction, and I'm going 
to take up where Jonathan left off.
    He was talking about the advantages that the field missions have--
credibility, presence, access and engagement. And then several people 
talked about the monitoring functions. I think Mike did, and Jeff. And, 
of course, from monitoring you get the next step of publicizing what 
the national governments, the participating States, have or have not 
done.
    My question is simply this. The glaring weakness of the OSCE, in 
spite of all the successes, has been the lack of an enforcement 
mechanism. Everybody knows this, this is a fact of life. You have to 
work around that. My question is, to the best of your ability in a 
public forum, if you could perhaps tell us what carrots and sticks you 
have at your disposal.
    Jonathan, of course, could work with the High Representative in 
Bosnia and the Dayton powers, and there are other special things in a 
few other countries. Marcel talked about EU accession. The OSCE is not 
an arm of the EU, but you could help. And there is, of course, NATO, 
with the recent case, terrific case, of Montenegro. But basically, 
other than name and shame, what kind of sticks do you have? You know, 
you could work behind the scenes and build relationships with local 
politicians.
    So that's my question. You talk about effectiveness, you have a 
great track record, but you haven't gotten everything you wanted or we 
wouldn't have the flaws that come out every year at the Human Dimension 
Implementation Meeting, or HDIM. I mean, everybody knows that the 
United States doesn't live up to all its commitments. If you could give 
us an idea of what carrots and sticks you have been able to use to 
further the OSCE agenda, I'd be grateful. Thank you.
    Mr. Hand. Thank you, Mike.
    Who would like to be the first to respond to Mike's question?
    Amb. Moore. I can touch on it. Thank you for the opportunity, Mike. 
And thank you for being here. I'm very happy to see many familiar 
faces.
    ``Name and shame'' is a big part of it. As part of your question, 
you said that we shouldn't look to that so much. One of the reasons why 
it's so important for the Mission to engage with everyone everywhere in 
Bosnia and Herzegovina is so you can point out the good stories. So 
getting as much public attention to the good stories is important, and 
then getting public attention to the bad stories where there's failure, 
where there are problems, where there are conflicts.
    Frankly, over the three years I was Head of Mission, we worked very 
hard to expand our media team to work with the media--not just to 
support them on the principle of media freedom, but to get them to be 
with us. Most media outlets, whether public or private, in Bosnia and 
Herzegovina are not very well funded, they do not have many staff out 
in the area. So we started paying to take them to where the stories 
were. Some of the best stories and some of the worst stories in Bosnia 
and Herzegovina are in fairly rural areas, even below the levels of 
municipalities.
    So bringing the force of public attention to what was actually 
happening both as opportunities and problems was something where we 
played a direct role. The budget is large, the team is 320 people. We 
were able, with a very professional media operation, to actually bring 
media attention directly so that instead of just talking about issues, 
we were showing, demonstrating and working on them.
    In terms, however, of political consequences, that's a very 
different topic. That's certainly not something we as a mandate had the 
opportunity to do, trying to engage with a variety of very difficult 
actors who one day are helping you do a job and the next day are 
blocking you at every turn, who are assisting in one area and then in 
another are talking about separation or, as I mentioned in my remarks, 
challenging the constitutional order of the country. And yet, you need 
some of those same people to work with you to get other things done.
    That, in the context of being a field mission and the work of OSCE 
as an institution to bring about specific sanctions or consequences, 
was not really an opportunity for us. But to direct positive energies 
and negative energies to challenge institutions when they were not 
doing their job--like the office of the prosecutor, who was failing to 
do a good job of getting war crimes processed; the issues in Stolac, 
where a candidate for mayor assaulted someone exactly on election day--
there are a lot of direct challenges where we had to engage, but more 
with the force of argument than the argument of force.
    Mr. Hand. Let me quickly ask, Jeff, did you want to respond at all? 
I know in the past year that you probably wish you had lots of carrots 
and sticks to go through the difficulties Macedonia has faced. Did you 
want to comment?
    Mr. Goldstein. Well, maybe just in general. I think we all have to 
bear in mind that all OSCE field operations are, with the exception of 
Kosovo, based in countries that are participating States in an 
organization that is a consensus organization. So they're not really 
there in a role of using sticks at all.
    You know, I think that when some of our programmatic work is not 
going well, when we have felt that there was not the political will on 
the receiving end, one of the things that we have frequently done is 
stopped programming or change our focus. I wouldn't exactly call that a 
stick, but it's a reaction to what the real-world possibilities are in 
a given time and place.
    And I agree completely with Ambassador Pesko that the biggest 
carrot we have is our ability to bring expertise to bear in areas that 
are a priority for a government at a particular time. And that's what 
we're hoping to do now.
    Mr. Hand. OK, thank you.
    Ambassador?
    Amb. Pesko. Well, what I would say is that, indeed, the 
organization needs discussion about our field operations. Some of them 
have been established 20, 25 years ago without a change in mandate, 
however, or any change in focus. So the mandate provided a growth 
framework for the work. And in fact, from the tools which were seen 
before as conflict response and conflict management presences, we have 
now in place presences which are dealing mainly with capacity building 
and strengthening of institutions on the site of our host countries.
    And recent developments in Western Balkans demonstrated that 
positive trends cannot be taken for granted. There are still ongoing 
challenges which can turn very fast. So I have to also say that some of 
these presences continue to maintain their early-warning and early-
response capabilities.
    We have reporting tools. Missions are regularly reporting to 
participating States. And this, yes, in fact puts the respective host 
countries on the spot, and in fact their own internal developments and 
implementation of reform agenda is exposed to all other participating 
States. We have to be clear about that. It's not sticks and carrots, 
but these participating States are more exposed when it comes to their 
own developments and own coping with the challenges as opposed to those 
who do not host field operations.
    And what the OSCE needs really is to have a good conceptual debate 
of how we have moved from the early 1990s to now, when we really try to 
refocus our work on the needs of all these participating States. So 
what we are trying to do is really to strengthen the sense of ownership 
of our work. You know, that's the difference, as Jeff said, between, 
let's say, us and the EU or NATO; that we are owned by the host 
participating States. So we are not working with sticks, we are trying 
to engage.
    And what we can offer is, as Jonathan said, local presence, 
developed network of contacts at all levels, long term--we are not 
coming and going. I mean, we are there and really developing and 
nurturing this environment with our host countries. And we are 
providing all kinds of expertise, and it's free of charge, by the way, 
for the host country. And the host country can identify where they see 
their weaknesses.
    Let me just remind you that Foreign Minister Nikola Dimitrov was 
recently in Vienna addressing the Permanent Council. And he said very 
openly, we want to do our reforms with you in order to achieve our 
vision. And the areas where we wanted to work with you is media 
freedom--we need to tackle hate speech and attacks against journalism--
accountability and the rule of law, the role of civil society, law on 
languages, so we would like to use the OSCE to recreate the sense of 
togetherness and to address the ethnic divisions within the country. 
And this is exactly where the OSCE can help in a soft way, in an 
inclusive way, using different tools.
    We don't have only missions, we have the High Commission on 
National Minorities, we are also dealing with these issues where we 
have freedom of media representative. We have ODIHR, which is regularly 
observing the elections, but also coming with its recommendations. And 
we are following up with these recommendations together with the local 
host country trying to achieve their implementation.
    So I think that this sort of stigmatization is still somewhere in 
the atmosphere, but it's now we are trying to move towards really a 
shared responsibility and shared ownership concept of the field 
operations, particularly in the Southeastern Europe region.
    Mr. Hand. OK. Thank you.
    Before turning to Michael Uyehara for a comment that he would want 
to make on this question, I want to echo the point that you made about 
the OSCE being a partner with the host countries and their governments, 
and about the expertise that the OSCE can provide them, and that they 
themselves acknowledge that they want. I think this is one thing which 
may distinguish, relatively speaking, the missions in the Balkans from 
OSCE Missions elsewhere, where I think some of the participating States 
that host missions or offices want the OSCE to be there at their whim; 
it's not really a two-way street. I appreciate with many of the Balkan 
countries the honesty with which they admit that they need help, and 
they don't view it necessarily as something to be embarrassed about or 
ashamed about, and that they make use of the OSCE and its expertise.
    Of course, we'd like to see that go even further and have countries 
be more honest about their own records. But the countries in Southeast 
Europe, I think, relatively speaking, do a pretty good job of that. And 
I hope that it continues, despite the attacks on some of the OSCE 
Missions that we see in other parts of the OSCE region.
    Mike, would you like to make a comment?
    Mr. Uyehara. I would say that this question of the OSCE not having 
an enforcement mechanism is not such a large issue, because, for 
instance, the OSCE Mission to Serbia had its offices in the 
neighborhood of New Belgrade, and we happened to be right across the 
street from the Council of Europe office in a neighboring building. And 
you probably know that the Council of Europe has, or the European Court 
of Human Rights has, an enforcement mechanism based on the fact that 
Serbia and other countries are signatories to the European Convention 
on Human Rights. And these countries are regularly fined for violating 
the human rights of their citizens when they're brought to the court.
    And what is clear, however, is the fact of these fines--and Serbia 
is one of the countries with the most cases brought to the European 
court--doesn't actually change their behavior. The countries just pay 
the fines. They're willing to accept that.
    So the threat of sanctions here doesn't necessarily lead to a 
change in behavior. You have to find the way to create this change of 
behavior. And I would also point out, in my written statement, I note 
that Yugoslavia has been the subject of the only sanction available to 
the OSCE, which was suspension in the Permanent Council. And that was 
through the exercise of that consensus-minus-one principle, which was 
the only time that it's been exercised, which means that the threshold 
for the OSCE to apply this particular sanction is quite high. And it is 
quite properly high.
    And then to talk about the OSCE Mission to Serbia, not to put too 
fine a point on it, one of the carrots we have is money, right? We can 
go to our partners and we can say if there is something that you really 
want to do, we can help you to do that. And then in particular with 
regard to, for example, the Ministry of Interior, the Italian 
government has provided them with a case-management system, which 
allows them to track the money--the progress of cases with regard to 
money laundering and corruption.
    And in order to be able to use this particular system, the OSCE 
Mission was able to provide help in terms of adapting that Italian 
language-based system into a Serbian language-based system that the 
Serbian authorities could use. And that was a method for them to, first 
of all, tap into the modern IT developments to show that they have made 
this particular progress, but then also to become more effective. And 
they couldn't have done that without the OSCE Mission.
    And so I think that what is key here with regard to changing 
behavior also is the personal relationships and the institutional 
relationships that have been developed over time, and that the OSCE 
Mission has this particular respectability and credibility with the 
Serbian authorities. And I think that we use that fairly effectively.
    Mr. Hand. All right, thank you.
    Let me now ask members of the diplomatic community from the 
countries we are discussing today whether they would like to make a 
comment. And I see the Serbian ambassador first. If you could introduce 
yourself.
    Questioner. Yes, of course. I am Djerdj Matkovic, ambassador of the 
Republic of Serbia to the United States. First of all, I would like to 
thank you, Bob, personally, and the members of the panel, for this very 
enlightening discussion and very useful comments which you have made. 
And the Helsinki Commission is very right in making these panels 
frequently, because it is important to keep the focus of the United 
States on the region. It needs some support from the United States, and 
we would like to have the positive impact from the U.S. and from other 
countries in our EU accession. And it's, I think, very important.
    At the beginning, I'm sorry that I was a bit late. And as one of my 
professors at the university said, to compensate, I will have to leave 
a bit early. [Laughter.] I apologize for that. But I heard from 
Jonathan that you have mentioned, Bob, in the beginning the terrorist 
attack in New York, which is really very unfortunate. And we would like 
to express our deepest condolences to the people who lost their loved 
ones, and our prayers and our hearts go out for them. And I hope the 
injured ones will recover very, very quickly.
    Also, I would like to recognize and introduce my good friend and 
longtime friend, Roksanda Nincic, who is our ambassador currently to 
the OSCE in Vienna. She has a long career in diplomacy, and before that 
she was in the media, a journalist. And she has made a great 
contribution to our work, I think, and our connection with the OSCE.
    As far as the Mission of the OSCE in Serbia is concerned, it was 
established in 2000, I think, 17 years ago. Although I heard that there 
are missions which are longer, we have a joke in Serbia that this OSCE 
Mission is soon coming to almost 18 years.
    At the beginning it was very useful cooperation, especially in the 
establishment of rule of law, judiciary. And in the internal affairs, 
we had excellent cooperation. And by years, the Mission also evolved, 
in a sense, that had more and closer relations with the government and 
also excellent work with the communities, local communities, with the 
media and also with the nongovernmental organizations. So I think we 
should continue that cooperation.
    And I think Ambassador Pesko mentioned a very good thing, that the 
mandate of the Mission, which was defined a long time ago, should be 
maybe a little bit adopted and to the new environment, the new 
conditions, because there are some things which we needed before, and 
now something else. For example, as Mr. Uyehara also mentioned, the 
fight against terrorism and organized crime.
    Serbia was fortunate enough that we didn't have major terrorist 
attacks. But it doesn't mean that we are not prone to that. So I think 
we should work on that, preventing these things happen, although we 
have learned from this New York attack that it is very difficult to 
prevent such individual acts. But good cooperation and exchange of 
information is very important. And I hope that the Mission will 
continue its work and cooperation with the Serbian Government.
    And I would like to thank you once again for organizing these 
events. We have managed to really go very far in our reforms and in our 
cooperation with the regional countries and partners. And it is our 
goal to continue these policies of regional reconciliation, including 
everybody into the EU, and connecting between our friends in political 
ways, economic, and also infrastructure.
    So thank you once again for organizing this. Thank you.
    Mr. Hand. Thank you, Ambassador.
    Somebody else from the diplomatic community like to speak? No? OK. 
Well, you can always chime in later during the question-and-answer 
period as well with the general audience.
    Let me now open it up to anybody who would like to ask a question 
of our panelists. Again, if you could start by identifying yourself and 
your affiliation, and then, if you have a comment, make it very, very 
brief, and then ask the question. Then let's try to keep the discussion 
moving. And I'll take two questions at a time. I don't like to go to 
three, because then one of them always gets forgotten. But I think if 
we go to just two at a time, we can try to manage it that way.
    Questioner. Thank you. My name is Austin. I'm with United 
Macedonian Diaspora.
    The question is, we mentioned the success of the Montenegrin 
example with their recent NATO membership. I'm wondering what specific 
lessons could be extrapolated from that example and applied to Serbia 
or Bosnia or Macedonia? And in light of this success, could we see 
maybe a sort of potential institutional momentum, if you will? Will 
this kind of reignite the ambitions of the EU and NATO to look at the 
Western Balkans again and refocus their integration efforts?
    Thank you.
    Questioner. Good morning. Alex Johnson with Open Society Policy 
Center.
    I want to commend you all for all of your hard work, but want to 
shift to a more difficult question that I think Ambassador Pesko and 
Bob started talking about and leading to this concept of the longevity 
of field operations.
    With the recent closure of the office in Yerevan, despite the 
interest of the host government in maintaining that presence, are there 
any concerns with regards to the field operations in the Balkans in 
terms of their longevity?
    Thank you.
    Mr. Hand. Who in our panelists would like to start with either one 
of those questions? Jonathan?
    Amb. Moore. Well, first of all, on the issue of integration, citing 
Montenegro as an example, Bosnia and Herzegovina also aspires to be a 
member of the European Union and of NATO. That's been the case for over 
10 years. There's a lot of domestic political debate about NATO 
membership, but that's a state capacity. And it was a member of the 
presidency who signed the letter 10 years ago that went to the then-
Secretary General in Brussels asking for consideration of NATO 
membership. It's a very long path.
    And to give sort of a short answer, I would basically say that 
Montenegro is an excellent example of when you not only aspire for 
membership, but you meet the criteria, you can gain membership in the 
case of NATO. And in the case of the EU, they've managed to open quite 
a few chapters and, I believe, close a few. You do the work and you get 
the results. That's probably the best example that Montenegro would 
show Bosnia and Herzegovina.
    With regard to the question from our colleague from Open Society--
and thank you very much for that--with regard to our presences, I at no 
point felt any pressure or concern in Bosnia and Herzegovina. I talked 
about our credibility, our access and our engagement, as well as our 
presence. I hope that doesn't change after today. But at no point 
during my mandate then did I ever hear, ``Why are you here''? ``You 
need to close.'' ``You need to go.'' There are other targets in the 
international community I won't mention now who are under a lot of 
pressure to change what they do or simply to leave.
    But one of our strengths is not just a deep and broad mandate that 
is tied to the Dayton peace accords. Many field missions don't have a 
mandate with that kind of foundation; but also the fact, of course, 
that our hosts, the government of Bosnia and Herzegovina and their 
authorities, are very enthusiastic partners and are very glad we're 
there. We're fortunate for that. Making that apply to other countries 
would be a separate matter.
    Mr. Hand. Jeff, I want to make sure--you can always wave your arm 
and somebody will point it out to me if you want to speak--but did you 
want to address these questions?
    Mr. Goldstein. I am OK. Thank you.
    Mr. Hand. Ambassador?
    Amb. Pesko. Yes. Well, just recently we have seen a recommitment by 
the European Union to advance the work on the integration path of the 
whole region. I understand there was a meeting between Mogherini and 
Commissioner Hahn with the foreign ministers from the region on the 
margins of the U.N. General Assembly, and there was a clear message 
towards that direction. And as I said also, Mr. Juncker, in his recent 
state of the union speech, mentioned this, that there is a need to 
reinforce work towards that direction. And this is at the same time 
linked with the reinforced focus on reforms in that countries.
    And, at the same time, there is an ambition to strengthen the 
regional cooperation--not at the expense of the enlargement ambitions, 
but in a complementary way. Let me just remind you, the Berlin process, 
the Berdo/Briani process, there was a meeting in Trieste as well this 
year. So we are seeing these reinvigorated efforts in the region 
towards that direction.
    At the same time, we are seeing bilateral issues. I mean, last year 
we had some issues when it comes to Pristina-Belgrade dialogue. We have 
seen some issues when it comes to the border between Montenegro and 
Kosovo still debated. We have seen disputes ongoing between Croatia and 
Slovenia. So let me be frank that there are these processes going on, 
and there is a need for a constant focus on these parallel processes to 
be facilitated by the international community.
    So from my perspective, what the OSCE's role is, first of all, 
focusing on this reform agenda. The more reforms being implemented and 
being stabilized, the more prospects for these countries to move 
forward with their integration agenda there are.
    And here I also see quite broad perspective for our future work 
here. As one of the actors providing the support there are some areas 
where OSCE support, given its regional presence, given its local 
expertise, given its longevity of presence, is perhaps more effective 
than the EU assistance. Or the same applies to the U.N. and UNDP and 
others. So it's also about the complementarity and synergies between 
the organizations who are active in that region.
    Where I see some systemic issue, of course, is that, in terms of 
the future of the field operations, as I said, we need to have more 
conceptual debate about it. We have now seen challenges stemming from 
the Mediterranean and from the south of Europe--migration, organized 
crime, of course, foreign fighters, radicalization. So this is where 
the organization is also focusing on that and trying to strengthen its 
capacities to deal with that. And there is a discussion about opening 
OSCE's presence in Italy, for instance, to address these Mediterranean 
challenges.
    So I think this could be really helpful to overcome this sort of 
stigma type of feeling on the side of countries who are hosting our 
field operations today. This is not homework for them. It's more the 
homework for those who don't have these presences. If you ask me, I 
would really prefer that the OSCE is presented everywhere in the 
region, maybe with a small presence, with a surge capacity to really 
work on issues with the host countries where they are needed.
    There is no dispute about ODIHR working with Western countries, 
including here with the U.S. There was a quite robust presence here, a 
lot of recommendations when it comes to the election system here, and 
also engagement on the side of the U.S. But if you put, let's say, 
theoretically an idea of having a full-time presence here, that's 
another story. But we have to understand that these countries, after 25 
years of development, including those in Central Asia, for instance, 
they have their different position in the international area. They have 
progress in many aspects.
    So we really need to look how we could continue this inclusive and 
cooperative way of working with them, and also address this balance 
between those who host and those who do not host. And the discussion is 
going on. And the discussion is going on. The Secretary General is 
going to organize a site event on the future of the field operations 
during the ministerial council. And there will be a Security Day event 
next year, next spring, on the future of the field operations as well 
in Vienna.
    Mr. Hand. That's interesting to hear. I know we at the Helsinki 
Commission have ourselves at times thought of ways of revamping the way 
the OSCE does missions, perhaps to allow them to be regional so they're 
not confined to borders, because in the Balkans, for example, you need 
cross-border cooperation. Or perhaps to make the missions more issue-
focused so that they could go perhaps even to all OSCE countries as 
needed.
    Let me ask for two more questions from the audience; this gentleman 
right here.
    Questioner. Thank you. Meto Koloski with the United Macedonian 
Diaspora. And thank you, Bob, and all the panelists; good to see some 
familiar faces, particularly Jonathan and Jeff we've been in touch 
with, but I haven't met in person.
    And thank you for the OSCE's work, particularly something Mike 
mentioned about these fines that countries have to pay after they're 
taken to the European Court of Human Rights. And for many people in the 
Macedonian minority in Greece and Bulgaria, they have been perfect 
vehicles. However, unfortunately, Greece and Bulgaria still do not have 
equal rights for Macedonian minorities in these countries, and the OSCE 
has been a great platform for many of these groups to kind of advocate 
for more rights and greater attention to this.
    I wanted to touch on perhaps what Ambassador Pesko mentioned 
regarding the law of languages in Macedonia. What specifically are you 
working on?
    And perhaps Jeff can touch on the role of ethnic parties and why in 
the Balkans and in Macedonia we probably still have ethnic parties as 
opposed to political parties on ideology. In most recent elections we 
did see this crossover of minorities voting for different political 
parties, but maybe you could touch more specifically on that. And 
perhaps the implementation of the Ohrid Framework Agreement, since the 
attention or the person responsible for this is somebody from the 
ethnic Albanian bloc, and Macedonia hasn't ratified the Framework 
Convention on Minority and Regional Languages. So perhaps you could 
touch on that and if any efforts your office is working on to meet some 
of these.
    Mr. Hand. Another question?
    Questioner. Thank you. My name is Martina Hrvolova. I'm a program 
manager at the Center for International Private Enterprise.
    I, first of all, would like to echo what Ambassador Matkovic had to 
say at the beginning about the role of the Helsinki Commission in 
increasing the awareness of the importance of the region in the United 
States.
    Second of all, the question I have for the honorable speakers 
today, Bob, is whether you gentlemen believe that a violent conflict in 
the Balkans is still a real possibility. And if the answer is yes, what 
is the role of OSCE in mitigating such a risk?
    Thank you.
    Mr. Hand. OK, thank you.
    Let me start with Ambassador Pesko and Jeff for the Macedonia-
specific question that was asked by Meto.
    Amb. Pesko. Yes, can I start with this question first?
    Mr. Hand. Sure, if you want to.
    Amb. Pesko. OK, all right.
    You know, I'm a director of the Conflict Prevention Centre, so our 
raison d'etre is really to try to identify indicators for potential 
conflicts and try to find tools how to respond early enough to those 
conflicts. Let me just remind the case of Macedonia--or FYROM, as we 
call it in the OSCE context--that was a textbook example where the OSCE 
could be useful to address a potentially escalatory situation early 
enough through the engagement with the local actors, be at that time 
the government parties and the opposition parties.
    I mentioned our contribution to the elections, the preparation of 
the early elections, then working together on the implementation of the 
recommendations, working also to get the creation of this prosecutor 
office, then engaging with the chairmanship directly, who coordinated 
with the European Commission and the U.S. representative in addressing 
the differences between the government and the opposition. And we have 
been monitoring, observing constantly the situation in the parliament, 
in a way creating conducive environment for the parties to engage. And 
when there was an escalation in the parliament, we immediately 
responded by dispatching the special representative of the chair. The 
Secretary General went there as well, trying to really engage the 
parties into the dialogue and finding a way forward, which then led to 
the elections.
    And the results of the elections were accepted by all. That's the 
most important thing. So perhaps there have been some deficiencies in 
that process. But on the other hand, ODIHR noted that the elections 
were democratic, were fair, and reflected the democratic will of the 
population. So this gave a strong basis for further steps, creation of 
the coalition government.
    And also here the issue of the language law has been mentioned. I 
understand that currently the law is going to be adopted, and then it 
will go to the Venice Commission for their review. And I know that the 
Skopje government is working very closely with the High Commissioner on 
the National Minorities in addressing potential issues with that law. 
What's important from our perspective is that the government clearly 
stated that they would like to find a way how to reunite the country 
across the ethnic divisions, to build a strong civic society. And here, 
this law should be part of that vision, I think. So if you ask me, if 
we can see escalation of potential conflict in Balkans, I would say 
yes, we still have some ingredients in that region where we are not 
still beyond the point of no return to the escalation of conflict in 
situations.
    However, for instance, the pressure of migration in 2015 on the 
region and the way the region was able to deal with these pressures--
and we remember, there were disputes between Serbia and Croatia, 
between Macedonia and Serbia--it demonstrates that the institutions are 
much more stronger, resilient in being able to cope with these 
pressures on their own, even without the support of international 
community. So we are on the right way but--in the right track, but we 
still have some time to achieve sufficient or strong enough 
institutions to be able to cope with these situations. And we can have 
conflict situations also in other parts of Europe. Let's be frank. The 
Balkans are not excluded, you know? It's not like this. We have this 
situation that's also about the participating States, to what extent 
they would be ready to engage OSCE in addressing these issues together 
with this multilateral structure.
    Mr. Hand. OK, thank you.
    Jeff, would you like to give a response?
    Mr. Goldstein. Yes, let me try and respond, but I apologize in 
advance. I'm getting a lot of feedback at this end. And I'm not totally 
sure that I understood the question, so if my answers are a little bit 
off base I apologize. I heard a question about the ethnic parties, 
about the Ohrid Framework Agreement, and languages. So let me just say 
a few words on that. I hope I get near the target.
    Regarding the role of ethnic parties, since the conflict here in 
2001 up until last year, essentially, you had four political parties in 
this country, two Macedonian and two Albanian. And approximately 90 
percent of the population of this country is either Macedonian or 
Albanian. Essentially, each group picked among the two of their 
ethnicity. Hardly surprising, I suppose, in this part of the world, 
when you ask someone about how they identify themselves, they're much 
more likely to come up with their ethnic group, their nationality, 
rather than their citizenship. That's changed a little bit here now. 
We'll have to see how long the phenomenon continues, but it has now 
lasted through two electoral cycles. So I think it's an open question 
about whether we're heading towards maybe some breakdown of this very 
rigid divide in which you had essentially two parallel but not touching 
political processes in the country.
    On the Ohrid Framework Agreement, of course, a large part of our 
mandate is to work on helping with implementation of the agreement. I 
think there has been some progress. I think there is a lot of work to 
do, particularly on issues such as inclusivity. I think one of the real 
challenges this country faces is the fact that one of the more 
important provisions of the Ohrid Agreement was that all children 
should have the ability to study in their native languages. The way 
that's been implemented over the last 16 years or so has resulted in 
the fact that we now have a generation of people who have grown up 
somewhat self-segregated from each other. And so one of the issues that 
we're working very hard on is greater inclusivity or integration.
    Finally, the law on languages. Very briefly, this is a law that has 
caused some controversy here. Of course, a very important part of the 
Ohrid Framework Agreement, is assuring the use of languages of all of 
the ethnic groups here, with greater or lesser remit depending on the 
size of the group. The government has promised that once passed by 
parliament, the law will go to the Venice Commission and they will fix 
any problems that this Commission recognizes with it. So we're 
expecting that to move ahead very shortly now that the elections are 
over. And hopefully, again, this will have a positive outcome.
    Mr. Hand. OK.
    Jonathan, would you like to make a comment?
    Amb. Moore. Quickly. I'll be very brief on the issue of ethnic 
parties. To discuss that with reference to Bosnia and Herzegovina would 
take far more time than anybody living I think has. I am pleased that 
here in the front row we have the founders of one of the important 
parties that's tried very hard to have non-ethnic politics in Bosnia 
and Herzegovina, Reuf Bajrovic. But I'll leave that issue aside. Most 
parties in Bosnia, unfortunately, are very ethnic. And in fact, ethnic 
politics are used to divide the country.
    However, to answer Ms. Hrvolova's question, is violent conflict a 
possibility? Yes, of course, I suppose anywhere, any time--New York 
yesterday, in that sense. But cross-border conflict I don't think is a 
threat in the Balkans. It's not the early 1990s in Belgrade, Zagreb, 
Sarajevo. Yes, they have difficulties in their bilateral relationships, 
but the prospect of a conflict, anything like happened 20 years ago and 
earlier, I don't see that.
    However, internally, because of the growing threat of violent 
extremism, this is something we have to pay a lot of attention to. And 
this is exactly why what CIPE is doing to help bring societies and 
people and entrepreneurs together, what OSCE Mission on the ground can 
do with regard to that to bring attention to local communities is so 
important. The Austrian Chairmanship-In-Office this year, under the 
leadership of Sebastian Kurz, brought in a special representative on 
CVE, Professor Peter Neumann. And he educated a lot of people on the 
fact that when you have a terrorist attack, you shouldn't just be 
wondering what the motives of the terrorists were and what the 
antecedents were, but what are the consequences. And in this particular 
case, this is our big concern of Bosnia and Herzegovina, that one 
attack in one place in a divided community can really tear the country 
apart. So keeping the country stitched together and avoiding violent 
conflict within the borders of Bosnia and Herzegovina is a big focus 
for the Mission because, exactly, we do fear the possibility of 
something spinning out of control.
    Thank you.
    Mr. Hand. OK, we had a question over here in the middle.
    Questioner. Thank you. Ardita Dunellari with Voice of America.
    Recently the deputy head of the European Parliament put the blame 
on the Kosovo authorities for not pushing ahead with the border issue 
with Montenegro and blaming the Kosovo authorities that they're holding 
hostage the issue of visa liberalization. Do you agree with Ms. 
Lunacek's assessment? And if so, what is OSCE doing, if they can do 
anything at all, to help the process along as it's not just the 
political issue, but it's holding hostage also economic advancement and 
a lot of the citizens' rights?
    And also, I wanted to pick up on the point that you were making 
about a different question on holding these communities together and 
hopefully preventing any conflict in the future. These societies, as 
much as the international structures and institutions, are trying to 
bring human rights to these very multiethnic societies. It seems that 
the issue of self-imposed segregation is happening. We have schools 
that are operating on one language versus a multilingual environment 
that these countries have. And on the other hand, while you mention 
that there is an effort to overcome this self-segregation, is there any 
effort being put into making these countries self-sufficient? Right now 
these multitudes of schools and institutions that operate among 
multilanguages which are very expensive, very cumbersome, are being 
supported by the international community. Is there any effort for a 
future when these countries will be weaned out and need to support this 
cumbersome system that's been created?
    Thank you.
    Mr. Hand. OK. And then we had one question over here.
    Questioner. Hi, I'm Marlena Casey. I'm a Foreign Service Officer 
with the State Department heading out to Sarajevo with some of my 
colleagues here.
    Thank you so much for reviewing the domestic issues that are 
occurring in each country and the programmatic focus for each domestic 
issue, and in some case cross-border issues.
    Ambassador Pesko, you raised regional challenges, cross-border 
challenges, transnational organized crime, foreign fighters, migration, 
and so on. I'm wondering if the OSCE has a regional programmatic 
approach to these regional challenges, particularly because you 
mentioned a broad integration and broad regional agenda. I'm wondering 
if the way we're addressing it, or the OSCE addresses, programmatically 
matches those cross-border challenges.
    Thank you.
    Mr. Goldstein. Maybe I can give a quick answer to the first 
question, regarding holding the community together. You know, this 
country or this region does have a history of intercommunal violence. 
But I have to say that I have been actually pleasantly surprised here 
by the maturity of the population.
    So, in 2015, it is still not completely clear what happened, but 
there was a firefight in the town of Kumanovo between a group of armed 
ethnic Albanians, many of them from Kosovo, and the police. There was 
some belief that this was an effort to somehow spark interethnic 
conflict. There was also some pretty significant, harsh rhetoric on 
ethnic lines over the course of the crisis here in the winter. And it 
became very apparent that if this was intended to try and goad the 
population into intercommunal violence, it was failing.
    I think a lot of people in this part of the world have seen what 
intercommunal violence looks like and don't want any part of it 
anymore. And I think a lot of what we're doing is trying to build that 
cohesion together. There are certainly problems here. There are 
certainly potential flashpoints. But I don't think, at the same time, 
that we should underestimate the degree to which people here want to 
get on with their lives and move beyond intercommunal conflict.
    On the question about self-segregation and trying to make this more 
sustainable--again, I can only speak for this country, but I am not 
aware of large amounts of money going into things like education in 
this country. In fact, up until recently, this country has had very 
little foreign debt. It's not a huge aid recipient. Now, again, I'm 
only speaking about the country where I am right now, but I'm not quite 
sure I agree with the premise of the question, that somehow the 
international community is supporting these multiethnic institutions 
that the countries couldn't afford on their own. I'm not sure that's 
the case here.
    Mr. Hand. OK. Thank you, Jeff.
    Jonathan, would you----
    Amb. Moore. Quickly again, if I may, I would be a little stronger 
than Jeff. The international community is not supporting in that sense. 
Certainly, in Bosnia and Herzegovina, divided education, it is quite 
the contrary: We're trying to put the schools together. You made 
exactly the point. They're very expensive when you have multiple 
schools, different textbooks and staff.
    At the same time, the right to education in your language is 
something that exists in a lot of EU member states where there are 
ethnic populations. From the British ambassador in Sarajevo I learned 
about the example of Northern Ireland, where there are very separate 
Protestant schools and Catholic schools, where the overall focus is on 
quality, education. You can't force all the kids together and ignore 
their right for instruction in their language. But at the same time, 
certainly we're not spending energy to divide them in education. The 
high school students in Jajce are a wonderful example of that.
    Responding to the question from the Foreign Service colleague about 
regional efforts and cross-border challenges, honestly--maybe I'll be 
more blunt than Marcel could be--there is a broad region. We talk about 
the Western Balkans. Croatia does not consider itself to be part of the 
Western Balkans but pays a lot of attention to the region. It's a good 
beacon because it completed the accession process, joining both NATO 
and EU. And yet, we have no OSCE Mission in Croatia anymore, so 
regional cooperation with Croatia is not exactly a role for the Mission 
to take on.
    At the same time, because of good professional contacts, I was able 
to have meetings in Zagreb on a number of occasions and bring some 
positive attention to what was actually going on in Bosnia and 
Herzegovina, as opposed to what was being reported in the press in 
Zagreb, and the opinion of some of the more senior leaders there. So, 
in comparison, for example, to the team in Serbia, where we have a 
Mission--and Mike and I got together frequently in Belgrade and with 
his boss, the current head of Mission and the previous head of 
Mission--we were able to interact a lot with other countries in the 
region. Our writ and our ability to be flexible is somewhat constrained 
within the framework of the national mandates we have. But it does give 
us a perspective. And of course, we share those ideas with bilateral 
embassies in capitals.
    Mr. Uyehara. I mentioned the fact that, based on the Follow Us 
initiative of our partnership with the OSCE Mission in Kosovo, we are 
planning to have this regional conference based in Belgrade bringing 
people together. And so the OSCE participating State delegations have 
encouraged the missions in the Balkans to work more closely together. 
And two examples that we cite is the regional housing program, where we 
work with, I think, it's Bosnia and Herzegovina--right?--and Croatia, 
Montenegro, and use funds from the European Union as well as the State 
Department's Bureau of Population, Refugees and Migration to build 
housing for refugees from the Bosnian conflict in the areas where 
they've been displaced. So that's a regional approach to an issue where 
we work with other missions.
    And then one of the other sort of regional initiatives that we like 
to cite is a cooperative venture to develop this serious organized 
crime threat assessment, which is an assessment that's required by 
Interpol and Europol as well. It requires a certain degree of 
sophistication, and we work with the missions in Montenegro and in 
Macedonia together in order to get the police and the ministries of 
interior in these three countries to reach that particular capacity. So 
the OSCE Missions in areas where there are sort of common objectives do 
work together. For instance, when Jeff was describing his mission's new 
priorities, it seemed to me that there would be areas where we could 
cooperate as well.
    Amb. Pesko. Yes, on this regional cooperation, I mentioned some of 
these processes--Berlin process, Berdo/Briani process--so this is 
ongoing. And we see OSCE's role as a complementary role to that. One of 
the areas where I see room for improvement is regional trade, for 
instance, and regional trade and investment, also transport, so the 
whole connectivity issue. And this is where our Office for Economic and 
Environmental Cooperation is very much involved.
    And we have also Transnational Threats Department in the 
secretariat who are dealing with the CVE issues, so organizing regional 
conferences. We had conferences in Tirana, for instance, on tolerance 
and foreign fighters. We also pursued the creation of the network of 
the youth representatives in the region. We have such regional offices 
of the youth representatives now nested in our mission in Tirana. So 
there are these sort of attempts to do more in that area. But as it was 
said, we don't have a Western Balkan mission, right? So we have 
separate missions. And what we do, we are trying to engage heads of 
missions to really get together and identify areas where it provides an 
added value.
    You know, I always use the example of how we work on borders in the 
respective countries, in Macedonia, in Serbia, where I think that the 
fact that the region was able to cope with these migratory flows was 
also a result of our long-term engagement in strengthening border 
management capabilities across the region as well.
    Another area is the whole security sector, reform and governance. 
That's also a part where we are trying to establish high-level 
standards in managing the democratic oversight of the armed forces 
pursuing the modernization of policing as well. I mean, we are building 
up here a sort of regional approach. It's not that we have a different 
approach in Bosnia from the ones in Montenegro or Macedonia. But more 
can be done. And as I identified, it's mainly in that area of organized 
crime, tolerance, interfaith cooperation. Those are the areas where we 
see room for improvements.
    On Kosovo, what we have seen recently in Western Balkans was the 
crisis of parliamentarism. We have not had for some time functioning 
parliaments in Pristina before the elections. We have seen these 
functions of parliament in Skopje during this two years' crisis. We've 
seen still the boycotting of parliament by some parties in Montenegro 
as well.
    And of course, the borders, those are purely bilateral issues. This 
is not for the OSCE to engage directly in some sort of mediatory role 
here. But our interests are that the parliaments are working in a 
democratic way, that there is a participation in that processes. And 
unfortunately, this border issue has become a hostage of that 
dysfunctionality on both sides for some time.
    At the same time, let me remind you that the OSCE has facilitated 
series of elections in Kosovo, both Serbian elections, most recently, 
the presidential elections, so that we created an environment and 
structures which allowed to conduct these elections in Kosovo in an 
orderly way, and collect the ballots and basically cover the whole 
area.
    Just recently, we also participated in the support of the 
parliamentary elections in Kosovo as well. So what I'm saying is that 
what we are more focused on is the strengthening of functioning 
democratic institutions, as opposed to dealing with a concrete issue of 
the borders, so that the sides are able to address these issues 
bilaterally, feeling comfortable and not instrumentalizing this issue 
in their internal political discourse.
    Unfortunately, that's not yet the situation. While this issue of 
the visa liberalization for the citizens of Kosovo is an issue, this is 
something which is on the agenda of the European Union, of course. And 
from our perspective, we are very much supportive of that, as we 
believe that there should be equal treatment of all citizens in that 
region. On the other hand, I can understand the political logic of this 
requirement. There is a pressure on Kosovo's side and the parliament 
particularly, and all political parties to take the political 
responsibility and agree on their borders.
    Mr. Hand. Thank you.
    Let me just ask the final question and then we'll close the 
briefing. We're a little bit over two hours now already. There's so 
much to discuss.
    There are two issues that got mentioned very briefly and I would 
like to see if we can have a little bit of elaboration upon them, as 
the issues are important to the Helsinki Commission. One is trafficking 
in persons. The countries of the Balkans, according to the United 
States State Department, are all tier-two countries, meaning that 
they're not meeting the requirements, although they're striving to do 
so. Two of the countries are on tier-two watch list--Serbia and 
Montenegro--because there seems to be some negative trends in those 
countries. Of course, it touches on rule of law issues. The migration 
issue has come up in terms of trafficking, et cetera. I was wondering 
if the three former or current members of the Mission could quickly 
speak about what OSCE activity is in regard to trafficking in persons.
    And then along the same lines, another very important interest to 
the Helsinki Commission is the plight of Roma--Romani communities in 
the Balkans, and actually throughout Europe. There was a recent 
European Roma Rights Center report that talked about statelessness 
among Roma as an intergenerational problem in the Balkans. If any of 
you could just give a brief comment about what might be done 
specifically on the statelessness issue for Roma, or more generally 
your engagement with Romani communities in the countries where you had 
served or are currently serving.
    Who would like to go first?
    Mr. Goldstein. OK, well, I was actually just this morning 
addressing a regional workshop on undocumented Roma that we organized 
together with the Ministry of Labor here. We do a lot of work on two 
aspects of the situation of Roma here.
    One is undocumented persons. There are still several hundred people 
in this country, both people who were never documented after the 
collapse of Yugoslavia and people who came over as part of the wave of 
refugees from Kosovo. The estimates are somewhere between 900 and 1,500 
people without documentation. The conference I was at was basically 
bringing together responsible officials from several countries in the 
region to discuss steps moving forward on this. We have commissioned a 
couple of expert studies this year that have just been delivered to the 
Ministry of Labor.
    The other issue where we're just starting to get involved in is the 
question of Roma street children and what can be done to try and get 
more of them back into the education system. And again here, we have 
hired an expert on the issue to draft a paper that's just been provided 
to our host officials.
    On trafficking, we take a multidimensional approach to this. We 
work on it from the human dimension point of view in a lot of our work 
with what we actually call school safety groups that work on a lot of 
issues, everything from the threat of trafficking, to bullying, to 
extremism with high school students. We also work on it in our work 
with the police largely in terms of helping them to deal with the 
trafficking elements that have been part of the migration flow that 
swamped this country two years ago, and which still continues to 
trickle through. So we work on both trying to increase public awareness 
of the issue, and capacity of the authorities working together with 
civil society to fight against trafficking.
    Mr. Uyehara. With regard to the trafficking in persons, what I 
understand is the OSCE Mission two or three years ago phased out its 
direct support in that area. We did provide a briefing to a 
delegation--I think it was from Kazakhstan--that was interested in sort 
of seeing the Serbian example, because I guess the Serbian 
infrastructure is fairly well developed, and it was on a study tour, 
and so then they came by and stopped with the OSCE Mission as well to 
get a briefing about our activities more broadly speaking.
    And most recently, the only sort of intersection that I'm aware of 
where we had addressed an issue that touched on trafficking in persons 
was the promotion of the principle with the Ministry of Justice on the 
non-punishment principle for victims of trafficking. It's my impression 
that that has been established in law, and so then I would assume--this 
was before my arrival at the Mission--that the Mission assessed its 
support provided for trafficking in persons, and concluded that with 
regard to sort of the structure of civil society organizations, NGOs 
providing support to the victims, as well as the structure of laws and 
the capability of the police with regard to enforcement, were all, from 
our perspective, adequate in that there's not that much that we could 
do on the subject. We moved on.
    And then, with regard to Roma, until last year in fact, we had 
several multimillion euro extra-budgetary projects directed towards 
Roma integration. I think it was in an order of 7 million euros over a 
period of four years or so, one of them funded by the Swedish 
Government, the other funded by the European Union. And this European 
Union-funded project was initially called the Technical Assistance to 
Roma Integration and then it was European Support for Roma 
Integration--and I would say, frankly speaking, partly driven by German 
concerns about the fact that Roma were habitually flying to Germany, 
claiming asylum and enjoying the benefits provided asylees and then 
returning and doing this repeatedly. And they wanted to sort of reduce 
that activity, and one way to do that was to improve the conditions for 
Roma in Serbia.
    And this multimillion-dollar project had several different lines of 
activity. It included purchasing equipment as incentives for small 
companies that agreed to hire Roma. And in one case, as I understand 
it, we bought a tanning bed for a beauty salon that had hired some 
Roma. Providing tutoring assistance, and that we established these 
mobile teams with various municipalities where the mobile teams brought 
together a pedagogical assistant, a tutor, a community health person 
and a social worker and a local government representative, and we 
bought vehicles for them so that they could go around to the various 
Roma communities. That project ended last year, and we had hopes that 
we would be able to then be selected for a successor, but the European 
Union contracting procedures essentially disallowed the OSCE Mission 
based on some obscure accounting rules that we're trying to work out 
with the Secretariat now so that we can compete in the future. And so 
then our activities with regard to the Roma community have been ramped 
down. We have a unit that still uses core budgetary funds to provide 
some assistance, but that's pretty selective and not at the scale as 
before.
    Thank you.
    Amb. Moore. Well, first of all, I have to take this opportunity 
here at the Helsinki Commission to praise your Co-Chair, Congressman 
Chris Smith, who has really been a leader for decades on the issue of 
trafficking in persons, or trafficking in human beings, as OSCE calls 
it. It is part of our Mission activities. The Mission does not have the 
lead, and the international community works very closely with bilateral 
embassies and the EU delegation. It does tie into the rule of law and 
security sector governance and reform programs that the Mission has.
    With regard to Roma, the Mission has had some outstanding young 
Romani interns, has a number of Roma employees, including Dervo Sejdic, 
well-known to the world as half of the Sejdic/Finci case in the 
European Court of Human Rights against the Dayton Constitution, which 
they won and still needs to be resolved.
    And we've also been involved directly with EU efforts to provide 
Roma housing. There are good ways and bad ways of doing that, and I'm 
very pleased that there's some communities that have done that 
extremely well, like Kakanj, for example, which is just half an hour or 
so from Sarajevo.
    It's also a clear issue for education. A lot of young Roma are 
denied the chance to go to school. Even beginning to talk about 
instruction in their language is a very early topic. It is something 
where the Mission is deeply engaged.
    Mr. Hand. All right. Thank you. At this point, I'd like to close 
the briefing. We're 15 minutes over and into our lunch time. I would 
just say that I, myself, had actually served on what was then a CSCE, 
now OSCE, Mission, way back in 1993. At the same time that the Mission 
to Skopje was founded, so was one to Kosovo, the Sandzak and Vojvodina, 
in Serbia and Montenegro, which were in a federal Yugoslav State at the 
time. And I served in Novi Pazar, in the Sandzak, between Bosnia and 
Kosovo, not necessarily the most pleasant place to be when there's war 
raging right next door, dealing with paramilitaries, as well as 
refugees and a whole host of things.
    But what impresses me so much about the OSCE is how it's advanced 
its capabilities in the field. I had a Danish military colleague who 
had to fly back to Copenhagen and drive back with his own 1980s Fiat 
because we only had one vehicle that somebody at the Conflict 
Prevention Centre went out and bought with a credit card and it needed 
servicing, and it was very much an effort trying to keep things patched 
together. But yet we got some things done. And now that we have a 
better infrastructure in the OSCE with its institutionalization, every 
time I go to the countries in the region, I'm impressed how many OSCE 
vehicles are moving around, how visible the OSCE is, and how it is 
trying to have an impact. I think it's very good and it speaks well of 
the organization.
    And I would also say that my opportunities, which continue, to meet 
with various Americans who are seconded to the Mission, like the 
panelists we have here with us today, shows the degree of support to 
which the United States gives to these missions. And I hope that that 
really continues despite the budgetary problems we may have. I also 
hope that all of our European countries will also rally around the OSCE 
flag to be able to get some things done.
    Finally, since there's a lot of thanks and praise for the Helsinki 
Commission, I'd like to thank our front office administrator Jordan 
Warlick, who's over advocating free media in Vienna right now, for 
nevertheless getting us the room and a lot of the logistics that made 
this happen.
    I'd like to thank Stacy Hope, our communications director--please 
raise your hand--who makes sure that we get out on Facebook and other 
things that I'm still trying to understand myself, what we do, but that 
gets us greater exposure.
    And if the Helsinki Commission is able to do some of the positive 
things that we were praised for today, it's because of our interns. And 
we have a merry band of interns with us today who really helped make 
this happen. Our lead intern in particular, Woody Atwood, I'd like to 
thank for making this connection with Skopje happen with Jeff. The only 
thing that Woody could have done to make this better would have been to 
push me aside and get out of his way so that he could get more things 
done. I want to thank him also for working with me in organizing all of 
this. It really went well.
    And hopefully, we can have more discussion about what the OSCE can 
do in the Balkans and perhaps in other regions, Central Asia, the 
Caucasus, where it has a definite role to play in the future, when and 
if Ambassador Pesko returns to Washington at some point, or some other 
OSCE official.
    And until that time, let me wish you all the best. And I hope that 
you enjoyed the briefing, and keep in touch.
    Thank you. [Applause.]
    [Whereupon, at 12:16 p.m., the briefing ended.]



                            A P P E N D I X

    =======================================================================




    2016 ended on a positive note here in Skopje. After two false 
starts earlier in the year, parliamentary elections called in an effort 
to overcome the political crisis that had gripped the country for two 
years were finally held and judged to be largely free and fair. The 
crisis began when the leader of the opposition published transcripts of 
a large number of illegally recorded phone conversations in which 
senior government and ruling party officials discussed a variety of 
allegedly illegal activities. With the assistance of representatives of 
the international community, the country's four largest political 
parties reached the so-called Przino agreement in 2015, calling for 
early elections with special protections to ensure they would be fair, 
and also the creation of the Special Prosecutor's Office (SPO) to 
investigate potential illegalities contained in the wiretaps.
    I would like to call your attention to two major positives from 
last December's elections:

1. For perhaps the first time in the country's history a major 
                    political party sought to reach out across ethnic 
                    lines and succeeded; some tens of thousands of 
                    ethnic Albanians voted for the Social Democratic 
                    party--SDSM.

2. In addition, turnout was up significantly over the elections of 
                    2014, rising by more than 6%, indicating that the 
                    citizenry both cared about the political situation 
                    and believed that the elections could have a 
                    positive impact.

    The elections produced a very close result. The conservative party, 
VMRO, which had been the senior party in governing coalitions since 
2006, won 51 seats, while SDSM won 49. The largest Albanian party, DUI, 
which had been in coalition with VMRO since 2008, registered a major 
decline in support, as large numbers of ethnic Albanians voted not only 
for SDSM, but also for two new forces on the ethnic-Albanian political 
scene, the Alliance for Albanians and BESA. Nevertheless, DUI's 10 
seats would have been enough to re-create the previous coalition with a 
one-seat majority in the 120-seat parliament.
    Following the elections, President Ivanov gave VMRO leader Nikola 
Gruevski the first mandate to try to form a new governing coalition. 
VMRO began negotiations with DUI and the two parties reportedly came 
close to reaching a new coalition agreement. Many in DUI, however, 
believed that the party's poor showing in the elections was the result 
of unhappiness among traditional supporters with DUI's long-term 
partnership with VMRO, which many Albanians had come to see as corrupt 
and ethnically chauvinistic. In the end, VMRO and DUI were unable to 
finalize an agreement.
    As leader of the second largest party in parliament, Zoran Zaev of 
SDSM then claimed the right to receive the next mandate from President 
Ivanov to seek to put together a governing majority. Ivanov refused, 
however, stating that he believed Zaev was willing to negotiate with 
the ethnic-Albanian parties on the basis of a policy document Ivanov 
claimed was drafted in Albania and presented a threat to the country's 
sovereignty and security. The Albanian parties denied that this 
document was drafted by outsiders, saying that it represented an 
agreement among the Albanian parties based on their own platforms and 
did not jeopardize the unitary character of the country or refer to any 
form of federalization or division of the country.
    This provoked a tense constitutional crisis. VMRO engaged in a 
months' long filibuster in parliament to prevent the election of a new 
Speaker while pro-VMRO groups held daily protest marches in Skopje and 
other major cities. Although Zaev had the support of DUI and the 
Alliance for Albanians, giving him a two-seat majority in parliament, 
the political situation was essentially deadlocked. Throughout the 
winter, state authorities also carried out a campaign of pressure 
against some of the country's most prominent civil society 
organization, including financial inspections that the groups claimed 
were politically motivated. The campaign was accompanied by harsh, 
nationalistic rhetoric from VMRO officials and allies against what they 
called ``Sorosoids,'' who they claimed had been plotting against VMRO. 
The Special Prosecutor, meanwhile, faced significant resistance from 
the judiciary and some parts of the Executive, slowing the effort to 
hold perpetrators accountable for any criminal activity revealed in the 
wiretaps.
    On April 27, MPs from SDSM, DUI, and the Alliance stayed on in the 
parliament building after the normal close of business and elected 
DUI's Talat Xhaferi as Speaker, making him the first ethnic Albanian to 
occupy one of the state's three highest official positions (the others 
being President and Prime Minister). The election took place just as 
the daily pro-VMRO protest march was reaching the parliament and a mob 
of several hundred broke into the building, assaulting leading members 
of the new coalition and journalists. The police responded in a 
decisive manner only after a significant delay, eventually rescuing the 
trapped deputies and clearing the mob from the building. Some VMRO MPs 
are under investigation for allegedly opening the doors of parliament 
to allow the protesters in; other VMRO deputies, meanwhile, tried to 
protect fellow MPs from other parties.
    Following the violence, President Ivanov relented and granted Zoran 
Zaev the mandate to try to form a governing coalition. After the 
successful conclusion of these negotiations, a government composed of 
SDSM, DUI and the Alliance for Albanians was finally formed at the end 
of May.
    The new government announced an ambitious series of domestic 
reforms, with specific goals to be achieved in three, six and nine 
months, and launched a campaign to improve relations with the country's 
neighbors. Symbolically, the new Foreign Minister's first foreign visit 
was to Athens, where he declared a desire to work to improve relations 
and pave the way for progress towards resolving the dispute with Greece 
over the country's name. The new government also rapidly finalized and 
signed an agreement on good neighborly relations with Bulgaria. These 
domestic and international initiatives are all aimed towards achieving 
the government's strategic goal of re-opening the country's integration 
into European and Euro-Atlantic structures.
    Last month the country held municipal elections. In unprecedented 
fashion, SDSM and DUI reached an agreement before the first round of 
elections to support each other's candidates in selected localities, 
which seems to have bolstered both parties' results. The main story of 
the first round, however, was VMRO's poor showing in its first 
elections as an opposition party in more than a decade, as the party 
received 25% fewer votes than it did last December. SDSM candidates won 
mayoral elections in Skopje and other large cities with an ethnic 
Macedonian majority, and also won in a number of smaller, rural 
municipalities where VMRO had been dominant. While the number of voters 
supporting DUI increased only slightly from December, with SDSM support 
and facing multiple competitors, DUI candidates reached the runoff 
phase in all four of the largest ethnic-Albanian majority 
municipalities.
    Leading up to the second round, which took place this past Sunday, 
Prime Minister Zaev actively campaigned not only for SDSM candidates 
but, in another first, for some DUI candidates as well. Meanwhile, the 
Alliance and BESA entered into a coalition for the second round in 
municipalities where one or the other faced off with DUI.
    According to preliminary results, in the second round SDSM 
continued its landslide, with the party's candidates beating those of 
VMRO in 17 of 19 mayoral runoffs. DUI also won most of the runoffs in 
which its candidates ran, although the Alliance won in one important 
municipality.
    The OSCE Office for Democratic Institutions and Human Rights' 
(ODIHR) election observation mission concluded preliminarily that the 
first round of elections was held in a competitive environment, with 
generally unbiased coverage by the media, and was generally well 
administered. ODIHR did, however, find some credible allegations of 
vote-buying and pressure on voters.
    Following the second round, VMRO leader Gruevski denounced the 
elections as unfair and said his party would refuse to recognize the 
results. In its preliminary assessment of the second round, ODIHR 
stated that the elections were competitive and that ``respect for 
fundamental freedoms contributed towards the conduct of democratic 
elections,'' while also noting reports of ``isolated cases of misuse of 
administrative resources and vote-buying.''
    While the local elections have roiled the political scene, and some 
suggest that the Alliance may now leave the national governing 
coalition, it appears that SDSM and DUI will have no problem in finding 
the votes to maintain a majority in parliament.
    Let me turn now to the role of the OSCE, and particularly the OSCE 
Mission to Skopje over the last year. During the tense days of the 
winter, the OSCE urged all sides to find a peaceful, constitutional 
resolution to the crisis, including through high-level visits to Skopje 
by the Secretary General and a Special Representative of the Austrian 
Chairmanship. For our part, the Mission closely monitored the situation 
on the ground, particularly the developing political conflict, the 
protests and the campaign against CSOs.
    With the advent of the new government, the Mission has turned its 
focus to coordinating with the new authorities on how best we can 
support the reform process, in line with our mandate and our host 
country's OSCE commitments. The mandate of the OSCE Mission to Skopje 
consists of three elements:

1. Support for implementation of the Ohrid Framework Agreement (OFA), 
                    which brought an end to the inter-ethnic conflict 
                    of 2001;

2. Advancing constructive inter-ethnic relations; and

3. Monitoring and providing early warning on security-related 
                    developments.

    As Foreign Minister Dimitrov told the Permanent Council two weeks 
ago, among the government's top priorities are reforms in the areas of 
the rule of law, law enforcement, the electoral system, freedom of 
expression and the media, and the role of parliament, as well as 
further implementation of the OFA. We have put together our plans for 
2018, which remain subject to approval of our budget proposal by the 
participating States, with these priorities fully in mind.
    The Mission will keep its focus on building cohesive inter-ethnic 
relations, with a particular emphasis on the areas of education and 
youth. We will continue to support decentralization and public 
administration reform, with a focus on enhancing institutional 
capacities at the central and local levels, increasing adherence to 
democratic governance principles, and further improving the capacity to 
administer free and fair elections.
    The Mission will maintain its early warning capacity through our 
field presence and mobile teams, which are a unique asset among 
international actors working in the country.
    We will also continue our long-term work in the areas of tolerance 
and non-discrimination, hate speech and hate crime. The Mission will 
support the government in its efforts to implement reforms to improve 
the rule of law and will seek to reinvigorate our co-operation with the 
Judicial and Prosecutorial Councils, particularly in relation to the 
system of appointments, evaluation and dismissals in the judiciary. We 
will also focus on transparency and access to justice. The Mission will 
continue to monitor high-profile court cases, including those with the 
potential to inflame inter-ethnic tensions and those raised by the 
Special Prosecutor.
    Historically, a major part of the Mission's work has been, and will 
continue to be, supporting implementation of democratic policing 
principles and further strengthening police professionalization, 
including improving accountability, transparency and policing skills. 
We will continue to provide support and expertise to address trans-
national threats, including violent extremism, organized crime, and 
issues surrounding illegal migration, such as trafficking in human 
beings.
    We hope to add two new streams of work in the coming year, 
providing support for the parliament to develop its oversight capacity 
and accountability mechanisms, and promoting freedom of the media, with 
a focus on increasing the safety of journalists and improving media 
literacy.
    Later this month, the Mission, which was the first OSCE field 
operation, will celebrate its 25th anniversary. We look forward to year 
26 as an opportunity, working with our hosts and the OSCE institutions, 
and in coordination with other international organizations and 
governments, to support positive change in the country. The tools of 
the OSCE have demonstrated their effectiveness in assisting the country 
during the recent crisis, and remain relevant to its democratic 
development, stability and security, as well as that of the region.


    I am deeply grateful to Helsinki Commission Co-Chairs Wicker and 
Smith, Commission members, and staff for the honor of addressing the 
topic of OSCE field operations in the Western Balkans, and for your 
continued focus on the region. Thank you again for your important May 
2016 hearing on combating corruption in Bosnia and Herzegovina.
    I should note that the OSCE Mission to Bosnia and Herzegovina has 
been in the hands of my successor, fellow American diplomat Bruce 
Berton, since the beginning of September. As requested by the 
Commission, my remarks are only based on my three-year tenure there. 
The views I express here are my own, and not necessarily those of the 
U.S. Government. I am not appearing here in my capacity as a US Foreign 
Service Officer.
    The OSCE Mission to Bosnia and Herzegovina, with an extensive 
network of nine offices throughout the country and 320 dedicated 
professional staff, works every day with people in local communities as 
well as the most senior political leaders--and everywhere in between--
to help keep the peace, protect fundamental rights, ensure the rule of 
law, and build prosperity.
    The framework for OSCE activities is grounded in the 1995 Dayton 
Peace Accords. Dayton and the constitution contained in it continue to 
serve as a key foundation for Bosnia and Herzegovina and its citizens. 
The Dayton Accords brought the OSCE to Bosnia and Herzegovina, giving 
the Mission a special role in conducting and observing the elections. 
The Mission's role has evolved. The Central Election Commission took on 
the responsibility of running elections in 2002. With the goal of 
helping the country achieve its OSCE commitments and integration 
aspirations, the Mission has used its diverse and active field presence 
to engage in a variety of areas, seeking and keeping very close ties 
with institutions, organizations, and individuals at all levels of 
society.
    The Mission's work encompasses OSCE's three dimensions--the 
politico-military, economic and environmental, and human dimensions--
with the assistance and guidance of the annual Chairmanships-in-Office, 
the Secretariat, and other institutions, including the Parliamentary 
Assembly and this Commission. Its international partners include the 
Office of the High Representative, the United Nations, the European 
Union, the International Criminal Tribunal for the Former Yugoslavia, 
the Council of Europe, and bilateral embassies. The Mission's work is 
expertly facilitated by strong media and policy planning teams, who 
advance and promote programmatic work in the areas of education, human 
rights, security cooperation, democratic governance, and the rule of 
law.
    Recalling the Mission's successful efforts and impact during my 
mandate, I would like to focus on three main areas: education; rule of 
law; and countering violent extremism.

Education

    Within the international community, the Mission has the lead for 
education. The children of Bosnia and Herzegovina will only prosper if 
they have quality education: they need the skills, knowledge, and 
judgment to succeed in a modern and increasingly diverse world. Quality 
education requires well-trained teachers, professional administrators, 
effective curricula, up-to-date materials, safe conditions, and an 
ethnic and religiously inclusive environment.
    Ethnic interaction is a vital element of the learning process. In 
the aftermath of the war, it is a reality that many people in Bosnia 
and Herzegovina define their identities by their language and religion. 
This does not justify ethnic segregation. Segregated schools in three 
Federation cantons are an obstacle. Discrimination by education 
authorities in Republika Srpska against the Bosnian language is a 
comparatively new and as-yet unsolved problem. A broader complication 
is the fact that that numerous jurisdictions have distinct and separate 
responsibilities for education. Despite these factors, there are 
communities where the Mission found and encouraged examples of success; 
where diversity, tolerance, respect, and vision have led to improved 
social and educational conditions. Religious communities have also 
played a very positive part in these efforts.
    A concrete example of the Mission's work was its immediate response 
to the secondary school students in Jajce, who joined forces in the 
summer of 2016 to block a new segregated school. With the OSCE Mission 
leading the efforts by the international community, we engaged both 
publicly and privately over months and at multiple levels to prevent 
the first new case of segregation in the country since 2002. The story 
gained national and international attention. While it is important to 
keep watching the matter, working together we convinced the authorities 
to make other steps instead. The ultimate credit goes of course to the 
students themselves, who showed incredible tolerance, maturity, and 
commitment to a common future.

Rule of Law

    The cooperation of victims and witnesses is critically important 
for the successful prosecution of war crimes. The OSCE Mission to BiH 
plays an established role in this field, with the full support of the 
country's judiciary, as well as the victims and survivors, who in far 
too many cases have been denied justice for over 20 years.
    Years of proven and effective relationships with judges and 
prosecutors and its professional expertise equip the Mission for 
engagement in other areas as well, including the prosecution of hate 
crimes. Separately, the Mission is a partner in efforts to combat 
trafficking in persons, and during my tenure expanded its capacity to 
fight corruption, in a project funded by the U.S. Government.
    In June 2016, the Mission released a detailed, hard-hitting 
analytical report on the state-level processing of war crimes, where 
there had been a number of deficiencies. The analysis was hailed for 
its insight and practical recommendations. Again, the Mission brought 
about concrete results: the recommendations are indeed being 
implemented.

Combating Violent Extremism

    Bosnia and Herzegovina has seen four terrorist attacks over the 
past seven years, resulting in the deaths of two soldiers and two 
policemen, as well as the wounding of a third policeman in the October 
2011 attack on the U.S. Embassy. The country's authorities are working 
to do what they can, but Bosnia and Herzegovina is vulnerable. Given 
the deep scars left by the war, terrorist attacks could greatly damage 
the stability of the country if they lead to acts of revenge and a 
growing cycle of conflict.
    The Mission takes advantage of its grass roots-level involvement 
throughout the country to make a difference: as in other areas, we see 
clear evidence of the essential role played by local communities. 
Having helped establish a series of over 30 Coalitions Against Hate 
across Bosnia and Herzegovina, local communities are natural allies in 
building mutual respect and joint community values. These are locally-
constituted groups of individuals and NGOs dedicated to working with 
each other as neighbors to emphasize common rights and build broader 
respect and understanding throughout their communities. The April 2015 
terrorist attack in Zvornik came as a shock to all of us. But we 
learned a valuable lesson: the local coalition there, together with the 
mayor and Islamic community, immediately called for calm and tolerance, 
and opposed any acts of revenge.
    Given that example, and building on a project funded by the U.S. 
Government, the Mission integrated the fight against violent extremism 
as a permanent element of its security cooperation efforts, one joined 
by colleagues from all policy and programmatic areas.
    The United States government has developed scenario-based, multi-
stakeholder seminars to promote collaboration and disseminate good 
practices to regional, national, and community leaders. With U.S. 
government support, the Bosnian Ministry of Security partnered with the 
OSCE to conduct a very successful tabletop exercise in March of last 
year. The event helped build international coordination and whole-of-
society collaboration. The OSCE is now following-up on the 2016 table 
top exercise by implementing a youth engagement CVE dramatic production 
contest, and will run TTXs at the municipal-level in 2018 to expand 
security partnerships to local community leaders.

Effectiveness

    While past accomplishments--such as the supervision of elections 
from 1996 until 2002, and assistance with defense reform over ten years 
ago--set the stage, the Mission continues to build capacities at all 
levels and speak candidly about both opportunities and obstacles, the 
Mission proves its effectiveness and the depth of its engagement again 
and again. Particular strengths include:

    <bullet>  The diverse, expert, motivated workforce, women and men 
from across the country and many different OSCE participating States;

    <bullet>  The large network of field offices allows for constant 
outreach, flexible and tailored to practical opportunities, and builds 
enduring local contacts;

    <bullet>  The extensive media presence, fostered by a pattern of 
access to the press and defense of media freedom; and

    <bullet>  Recognition by the public that the Mission does not shy 
away from difficult tasks and issues, whether at the national or local 
level.

Conclusion

    In conclusion, I remain very thankful to all of the colleagues at 
the Mission for enhancing stability and promoting reform in Bosnia and 
Herzegovina. Thank you again for the important opportunity to discuss 
these issues. I look forward to your questions, and to hearing the 
views of my fellow panelists.


    Dear distinguished members and staff of the Helsinki Commission, 
current and former colleagues of the OSCE, ladies and gentlemen,
    I have worked closely with the Helsinki Commission since 2001, when 
I was a Belarus Desk Officer at the Department of State, and then 
continuing on during subsequent assignments at the U.S. Embassy in 
Kyiv, Ukraine; as director for the office in the Bureau of Democracy, 
Human Rights, and Labor covering the European and Eurasian region; and 
most recently as the Deputy Head of the OSCE Mission to Serbia. During 
these assignments, I have become increasingly more impressed with the 
role played by the Helsinki Commission, a unique institution drawing 
together the Executive and Legislative branches and bringing together 
the Senate and House of Representatives from both sides of the aisle. 
The Helsinki Commission does wonderful work to highlight the human 
rights situation within the OSCE region and to draw attention to the 
work of the OSCE.
    As the Deputy Head of the OSCE Mission, I traveled widely through 
Serbia, and took the opportunity, using my connection with the U.S. 
Embassy in Belgrade, to speak at American Corners in the country on the 
topic of the U.S. within the OSCE and the OSCE's role in support of 
Serbia's development. Most of my audience were young, often university 
students or younger, and attending my talk to have the opportunity to 
hear a native English speaker. To break the ice, I would ask each 
member of my audience what they already knew about the OSCE. I was 
disappointed that the great majority of my audience knew nothing about 
the organization beyond its name. The common answer was either ``I 
don't know about the OSCE'' or that ``the OSCE promotes security and 
cooperation.'' Given this level of ignorance about the role of the OSCE 
in a country where the OSCE has a mission, I am grateful to the 
Helsinki Commission, and particularly Bob Hand, for arranging an 
opportunity to publicize and to promote knowledge of the really great 
things that the OSCE, through its missions (what the OSCE refers to as 
``field operations'') does, specifically in the Western Balkans.
    I should first emphasize that I offer my remarks as a private 
individual. I no longer have a connection to the OSCE and, while I 
remain an employee of the State Department, the views I express here 
are my own and not necessarily a reflection of U.S. policy, either 
toward the OSCE or toward the Balkans region broadly and Serbia 
specifically. That said, my observations and conclusions would probably 
not differ greatly from my views expressed in Vienna during meetings 
with representatives of diplomatic delegations to the OSCE or what my 
former boss, Italian diplomat Andrea Orizio, might state in his annual 
report to the OSCE Permanent Council in Vienna.
    You have already had the opportunity to hear from Jonathan Moore 
and Jeff Goldstein, both of whom I have known for many years and who 
are great friends of mine, so you should have drawn a general 
understanding of the role of OSCE missions. Both of their countries, 
however, face specific challenges regarding democratization and 
governance. Serbia seems calmer, but I would draw your attention to the 
role played first by Yugoslavia and then Serbia with respect to the 
OSCE to underscore the importance of the work of the OSCE Mission to 
Serbia.
    The OSCE has its roots in the Conference on Security and 
Cooperation in Europe (CSCE), a series of meetings between NATO and 
Warsaw Pact member countries. While a manifestation of the Cold War 
confrontation, the CSCE also broadened its scope to include formally 
neutral and non-aligned countries and, as an acknowledged leader of the 
Non-Aligned Movement, Yugoslavia was an active participant in the CSCE 
negotiations that led to the signing of the Helsinki Final Act on 30 
July to 1 August 1975. Partly in recognition of Yugoslavia's important 
role, the First Review Conference (formerly known as Follow-up 
Meetings), was held in Belgrade from 4 October 1977 to 9 March 1978. It 
provided a forum for discussion and agreement on a number of aspects of 
the Helsinki process.
    In subsequent years, Yugoslavia and then Serbia became a special 
focus of the OSCE. On 8 July 1992, the Federal Republic of Yugoslavia 
(FRY), later re-designated as the State Union of Serbia and Montenegro, 
was suspended from participation in the OSCE (the first time and only 
time to date that the OSCE employed the consensus minus one mechanism). 
The decision was taken on the basis of Yugoslavia's ``clear, gross, and 
uncorrected violations'' of OSCE human dimension commitments. FRY's 
participation was restored only on 7 November 2000. On 14 August 1992, 
the OSCE Missions of Long Duration was established for Kosovo, Sandjak, 
and Vojvodina; deployed in September; and subsequently withdrew in July 
1993 when Yugoslav authorities refused to sign an MOU to prolong the 
mission. On 23 July 1998, the OSCE Technical Assessment Mission issued 
an assessment of the deteriorating situation in FRY and, on 15 October 
1998, the OSCE established the Kosovo Verification Mission, which was 
closed in June 1999.
    With this historical backdrop, we come to the establishment of the 
OSCE Mission to Serbia, which took place with a Permanent Council 
decision of 11 January 2001, just a few months after a popular movement 
saw the removal of Yugoslav President Slobodan Milosevic on 6 October 
2000. Unlike the Missions to Bosnia and Herzegovina and in Kosovo, the 
OSCE Mission to Serbia does not have an extensive network of field 
offices, but maintains just two, but important ones with respect to 
protection of national minority rights. One office is located in 
Bujanovac, in southern Serbia, in an area where the majority of ethnic 
Albanians reside. The second is in the city of Novi Pazar, in southwest 
Serbia, which has a concentration of ethnic Bosniaks.
    Finally, to finish the historical narrative, I should observe that 
Serbia's rehabilitation with respect to the OSCE culminated in its 
holding of the 2015 OSCE Chairmanship-in-Office, during which, in my 
opinion, the country acquitted its responsibilities quite well.
    Like other OSCE field operations, the OSCE Mission to Serbia's 
programs and activities are based on its mandate, which is part of the 
decision establishing it. Thus, it is worthwhile to cite the relevant 
language of the mandate here.
    A subsequent Permanent Council decision 733 in June 2006 changed 
the Mission's title to the Mission to Serbia upon Montenegro's 
independence. The version that I will read incorporates the relevant 
changes to the mandate's language. The mandate states;
    ``The Mission, acting in close co-operation with the Government of 
the Republic of Serbia, will provide assistance and expertise to the 
Serbian authorities at all levels, as well as to interested 
individuals, groups and organizations, in the fields of democratization 
and the protection of human rights, including the rights of persons 
belonging to national minorities. In this context, and in order to 
promote democratization, tolerance, the rule of law and conformity with 
OSCE principles, standards and commitments, the Mission will also 
assist and advise on the full implementation of legislation in areas 
covered by the mandate, and monitor the proper functioning and 
development of democratic institutions, processes and mechanisms. In 
particular, the Mission will assist in the restructuring and training 
of law enforcement agencies and the judiciary.
    In addition, the Mission will provide assistance and advice in the 
field of the media.
    The Mission will, in close co-operation with the Office of the 
United Nations High Commissioner for Refugees, provide advice and 
support in order to facilitate the return of refugees to and from 
neighboring countries and from other countries of residence as well as 
of internally displaced persons to their homes within the territory of 
the Republic of Serbia.''
    The OSCE Mission's structure reflects the mandate. It has four 
programmatic departments: for Democratization, for Rule of Law and 
Human Rights, for Security Cooperation, and for Media. Briefly, the 
OSCE Mission seeks to help Serbia build strong, independent, 
accountable and effective democratic institutions. To do so, the 
Mission works with government institutions, civil society and the media 
in the areas of rule of law and human rights; law enforcement; 
democratization; and media development. It also works with other 
Missions in the region on joint projects and initiatives.
    Through its programs, the OSCE Mission continues to provide added 
value in its core mandated fields through advice and expertise to its 
local partners to assist Serbia in becoming a rule-based, democratic 
society, where professionalism, accountability and meritocracy are 
deeply rooted and where the rights of every individual are protected by 
an independent and effective judiciary deriving its authority from a 
full separation of powers. The principles of partnership with the host 
country and national ownership of accomplishments guides the Mission's 
work in helping Serbia achieve full sustainability of its reform 
results. Adequate buy-in from the Serbian authorities and their full 
participation in the development and implementation of Mission programs 
ensure that these are targeted and topical.
    Internally, the Mission strives to improve inter-Departmental co-
operation, to reflect the increasingly cross-cutting nature of issues 
we deal with. For example, in the field of security sector reform, the 
Mission is shifting focus from a police-centered to a more 
comprehensive and inclusive approach, consistent with the OSCE holistic 
and systematic approach to security, linking reforms in the fields of 
criminal justice system, law enforcement, democratic control and 
community participation. It is also strengthening co-operation with 
OSCE institutions to exchange expertise and deploy it in a mutually 
reinforcing fashion, maintain a high-level of co-operation with other 
field operations in the region; and engage in regional initiatives, 
including in tackling trans-national threats and trafficking in human 
beings through police cooperation, contributing to stability in the 
Western Balkans.
    The OSCE Mission to Serbia has a robust presence in the country, 
with a staff of about 130 people. This puts the Mission on a par with 
the EU delegation and makes it much larger than most bilateral 
embassies, including those of OSCE participating States. While the OSCE 
Mission comprises a mix of international and local staff, with 
international staff accounting for about 20 percent of total staffing, 
the OSCE Mission's particular strength is its local employees. While 
the OSCE Mission's remuneration is competitive and generous, my 
personal impression is that the local staff are enthusiastic in 
carrying out their duties because they are, in the main, Serbian 
patriots. As patriots, they believe in the OSCE Mission's work and are 
deeply committed to the Mission's objective of helping Serbia to 
advance politically and to overcome the legacy of the past. With their 
native fluency in Serbian and their extensive networks within 
government and civil society, the OSCE Mission's Serbian employees 
effectively represent the OSCE Mission and enhance its reputation as a 
valuable partner for Serbia.
    The staffing number does include security guards and drivers, but 
the bulk of the OSCE Mission's staff implements the Mission's 
programming. In short, the ``tooth to tail'' ratio is quite high. The 
support function, gathered in the Fund Administrtion Unit (FAU), is one 
of the leanest among OSCE field operations.
    My general description of the OSCE Mission's work perhaps still 
remains rather general and abstract. To bring the accomplishments of 
the OSCE Mission into focus, I should describe three areas of the OSCE 
Mission's work--the new countering violent extremism project, the 
Follow Us initiative, and its work with youth. The three descriptions 
will make more concrete how the OSCE Mission is working with other OSCE 
field missions and improving inter-departmental coordination 
internally.
    For quite some time during my assignment, I was frustrated by the 
scant attention that international donors were paying to the issue of 
countering violent extremism (CVE) in Serbia. Serbia had a handful of 
returning foreign fighters, who might have volunteered with ISIS in 
Syria, and there have been few or no cases of terrorist violence 
committed in the country. The international donor attention to the 
Balkans instead was focused on Kosovo and Bosnia and Hercegovina, where 
there were cases of terrorist violence and real cause for concern about 
the CVE potential. My argument, however, was that the CVE potential in 
Serbia was not zero. There are a significant number of unemployed and 
disaffected youth in Serbia, and not just among the Muslim populations 
of the Albanian and Bosniak minorities. While strict Muslim 
fundamentalism was gaining strength, particularly in the area in and 
around Novi Pazar, in the Bosniak region of southwest Serbia, 
thankfully, it had not translated into radical extremism. Nonetheless, 
I would argue with various interlocutors that an ounce of prevention 
was worth a pound of cure. Just because Serbia did not have a problem 
now, we should carry out projects to counter violent extremism so that 
we would not have a problem in the future.
    Thankfully, the UK government saw an intersection with a new 
funding mechanism and the CVE issue, which resulted in an offer to fund 
a CVE project for the OSCE Mission to implement. We ran with the vague 
UK expression of interest to develop a full-fledged project. Rather 
than focusing on Muslim-majority areas, taking heed of local leaders' 
concerns not to be stigmatized simply for being Muslim, we proposed a 
project that was national in scope, and took into consideration all 
manifestations of violent extremism, including threats from Serbian 
right-wing nationalism, some of whose supporters had joined the 
Russian-backed insurgency in Eastern Ukraine. Realizing that we should 
not channel our CVE activities in any specific OSCE Mission department, 
but that the CVE activities needed to encompass the broad mandate of 
the Mission, we positioned the management and execution of the project 
in the Office of Head of Mission, which would allow the project manager 
to task and work with all departments. This approach allows us to 
tackle the problem with a multi-faceted approach, which addresses 
primarily youth alienation in all of its manifestations.
    The OSCE Mission supports the Follow Us initiative, started by the 
Mission to bring together prominent women, particularly women 
parliamentarians, from Belgrade and Pristina. In addition to providing 
financial support, in cooperation with the OSCE Mission in Kosovo, for 
meetings of the two groups, the OSCE Mission commissioned a series of 
documentaries of varying lengths to promote the accomplishments of the 
group and the benefit of having women from opposite communities speak 
to each other. The documentary has been screened for various audiences 
in both Serbia and Kosovo. The Follow Us initiative participants have 
most recently developed an action plan and an objective that includes 
mentoring the next generation of Serbian and Kosovo women leaders. As a 
result of their decision, the OSCE Missions to Serbia and in Kosovo 
funded a group of young women from Belgrade and Pristina to organize a 
caravan, where they, as a group, visited regional cities in Serbia and 
Kosovo, to describe the impact of the program bringing them together to 
connect simply as people. Using the Follow Us initiative as a template, 
the OSCE Mission is organizing a regional conference in Belgrade of 
women parliamentarians to allow them to discuss their common issues as 
women and as politicians.
    During the Serbian chairmanship, Serbia designated a young Serbian 
woman as the Chair's representative on youth and security. The young 
woman happened to be working as an intern at the OSCE Mission. We 
extended her internship, and used her status within the Mission to 
support her travel to various events that she was obliged to attend in 
her new capacity, saving the Serbian OSCE Chair scarce resources, as 
well as furthering the professional development and capacity of an OSCE 
Mission intern. We kept her on subsequently on a contracted basis, 
which meant that she received a salary. We continue to work in the 
youth promotion area, a continuing area of OSCE Mission attention, with 
the three pillars on the Serbian side working on youth issues--the 
National Council, National Association of Youth Workers and the 
Association of Local Youth Offices. We also leveraged a Serbia-Albania 
rapprochement resulting from a Memorandum of Understanding signed by 
the Serbian and Albanian Governments in 2014 to promote greater 
understanding between the youth of the respective countries. We 
obtained funding for a Serbian-Albanian youth exchange, bringing 
Albanian and Serbian youth together to break down stereotypes that each 
has of the other. The OSCE Mission is examining opportunities to 
advance the initiative under the auspices of the Regional Youth 
Cooperation Office (RYCO), recently opened in Tirana and established by 
decision of the Balkans countries participating in the Berlin Process.
    During the course of my adult career, I have worked basically for 
two organizations. For nearly ten years, I was an enlisted soldier and 
officer in the U.S. Army. And then, for slightly more than 30 years, I 
have been a Foreign Service Officer in the State Department. My 
secondment to the OSCE Mission was a unique foray into another 
organizational environment. I had the opportunity to work with talented 
and accomplished people of many nationalities, with dedicated and 
enthusiastic Serbians, and to gain an appreciation for the value of 
multinational diplomacy. I am honored to have the opportunity to speak 
to you, but I am also deeply grateful to have had the opportunity to 
work at the OSCE Mission to Serbia, one of the real highlights of a 
long and rewarding career. Thank you for your attention.
 


            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
